«|r

.*,*20,9. ID: 1,536749, DktEnt^: 3, Page 1 o, 1

united states court of

APPEALS

filed

for the ninth circuit

PATRICIA A. McCOLM,
No.
Plaintiff-Appellant,

19-16660

DEC 18 2019
MOLLYC. DWYER, CLERK
U.S. COURT OF APPEALS

D.C. No.
2:18-cv-02092-MCE-CKD
Eastern District of California.
Sacramento

v.
STATE OF CALIFORNIA; et al,
Pefendants-Appellees.

ORDER

Before: THOMAS, Chief J
udge, BERZON and BRESS, Circuit Judges.
This court has reviewed the

notice of appeal filed August 21, 2019 in the
above-referenced district court docket
pursuant to the pre-filing review order
entered in docket No. 01-80189.
Because the appeal is so insubstantial as to not
warrant further review, it shall not be

permitted to proceed. See In re Thomas, 508
F.3d 1225 (9th Cir. 2007). Appeal No. 19-16660 is therefore dismissed.
This order, served on the distri
net court for the Eastern District of California,
shall constitute the mandate of this
court.
No motions for reconsideration,
or any other submissions shall be filed

rehearing, clarification, stay of the mandate,
or entertained.

dismissed.

DA/Pro Se

faleuNr :1L

Fited 04/16/19 Egftl*8
1
2
3
4

5
6
7
8

united states district court

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

PATRICIA A. MCCOLM,

12
13
14
15

No. 2:18-cv-02092-MCE-CKD (PS)

Plaintiff,
v.

ORDER

STATE OF CALIFORNIA, et al.,
Defendants.

16
17

On February 21,2019, the magistrate judge filed findings and recommendations (EOF No

18

7), which were served on the parties and which contained notice that any objections to the

19

findings and recommendations were to be filed

20

within fourteen days. Plaintiff was subsequently
given until March 25, 2019 to file any objections. (ECF No. 10.) On March 11 and 14,2019

21

plaintiff filed objections to the findings and recommendati

22

been considered by the court.

23
24

25
26
27
28

ons (ECF Nos. 11,12), which have

This court reviews de novo those portions of the proposed finding
s of fact to which an
objection has been made. 28 U.S.C.
§ 636(b)(1); McDonnell Douglas Corp. v Pn----*******
™ 1309. 13.3 (9th Cir. 1981); ^
561 F.3d
930, 932 (9th Cir. 2009). As to any portion of the p
roposed findings of fact to which no objection
has been made, the court assumes its correctness
and decides the matter on the applicable law.
See Orand v. United
$02 F.2d 207,
208 (9th Cir. 1979). The magistrate judge’s
1

niedd°o™9 Page J^48
1
2
3
4
5

conclusions of law are reviewed d

e novo. See Britt v. Simi Valiev Unified School nict

452,454 (9th Cir. 1983).

708 F,2d

The court has reviewed the applicable legal standanls and,
good cause appearing,
concludes that it is appropriate to adopt the finding
s and recommendations in full. Accordingly,
IT IS HEREBY ORDERED that:

6

1. The findings and recommendations (ECF No. 7)

7

2. This action is DISMISSED as duplicative.

8

3. The Clerk of Court shall close this case.

9

IT IS SO ORDERED.

are ADOPTED.

10 | Dated: April 15,2019
11
12

MORRISON C. ENGLAN2 '.JR
UNITED STATES DISTRJ

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
2

■V

.

..

Case 2:18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 12 of 48
Case 2:18-cv-02092-MCE-CKD Document 7 Filed 02/21/19
Page 1 of 3
1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

PATRICIA A. MCCOLM,

12

Plaintiff,

13

No. 2:18-cv-02092-MCE-CKD PS

v.

14 |

ORDER AND FINDINGS AMn
RECOMMENDATIONS

STATE OF CALIFORNIA, et al.,

15

Defendants.

16
17

Plaintiff Patricia A. McColm, who proceeds without counsel,

18

filed this action on August
1, 2018 and requested leave to proceed in forma pauperis pursuant to 28 U.S.C. § 1915. (ECF

19

Nos. 1,2.)1 On September 18,2018, United States Magistrate Judge Dennis M

20

plaintiffs motion to proceed in forma pauperis and indicated that the

21

separately the sufficiency of plaintiffs complaint and whether service

22
23

26
27
28

court would address

of the complaint is
appropriate. (ECF No. 5.) Subsequently, this matter was reassigned to the
undersigned on
January 1,2019, due to Magistrate Judge Cota’s recusal. (ECF No. 6.)

24
25

. Cota granted

Pursuant to 28 U.S.C. § 1915, the court is directed to dismiss the case at

any time if it

determines that the allegation of poverty is untrue, or if the action is frivol

ous or malicious, fails
to State a claim „„ which relief may be granted, or seek, monetary relief against an immune
i

§ 636(b)(ie)PrOCeedS bef°re the understened Pursuant to E.D.
1
k

Cal. L.R. 302(c)(21) and 28 U.S.C.

L

\ '

2ase 2:18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 13 of 48
Case2:18-cv-02092-MCE-CKD Document? Filed02/21/19 Page2of3
1

defendant. For the reasons discussed below, the court concludes that this action is frivolous

2 I because it is duplicative of an action that was previously filed in this court. Accordingly, the
3

4

court recommends that the instant action be dismissed.
On July 30,2012, Patricia McColm commenced an action against the State of California,

5

Trinity County, various superior courts, and several public officials. See generally McCnl m v.

6

Trinity County etal., 2:12-cv-01984-MCE-AC, ECF No 1. On May 30,2018, McColm filed the

7

first amended complaint in that action, alleging that the

8

13

action arises out of [a] retaliatory “protectionism” agreement
amon§ all named defendants occasioned by fear of litigation from
Pl&intiffs_complaints of defendants’: 1) non-compliance with
American’s With Disability (ADA) access requirements in Trinity
County building facilities, 2) non-compliance with ADA mandate to
provide access to the court and accommodate limitations of disability
in Trinity County Superior Court services; 3) non-compliance with
Constitutional rights of Plaintiff; including but not limited to,
requirements to provide access to the court and court services ... [as
well as 13 other alleged and enumerated violations].

14

McColm, 2:12-cv-01984-MCE-AC, ECF No. 38 at 2-3 (emphasis in original). That matter is still

9
10
11
12

15 | pending.
16
17
18
19

20
21

22
23
24
25

Plaintiffs October 1,2018 complaint in this action brings claims against the State of
California, Trinity County, various superior courts, and several public officials, alleging that the
action arises out of [a] CONTINUING retaliatory “protectionism”
agreement (letter imposition of restrictions on Plaintiff's access to
the court imposed without notice and opportunity to oppose) among
all named defendants (See Related 2:I2-cv-1984) occasioned by fear
of litigation from Plaintiffs complaints of defendants’: 1) noi>
compliance with American’s With Disability (ADA) access
requirements in Trinity County building facilities, 2) noncompliance with ADA mandate to provide access to the court and
accommodate limitations of disability in Trinity County Superior
C°Yrt.i5™esj. 3) non-compliance with Constitutional rights of
Plaintiff; including but not limited to, requirements to provide access
to the court and court services ... [as well as 13 other alleged and
enumerated violations].
B
(ECF No. 1 at 2-3 (emphasis in original).)

26

It is apparent that the instant matter concerns the same essential parties and nearly

27

identical allegations as McColm, 2:12-cv-01984-MCE-AC. Plaintiff even indicates that the two

28

matters are related. Additionally, much of the complaint here is identical to the first amended

2

'

S

1
2
3

Case 2:18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 1 of 48

PATRICIA A. MCCOLM
PO Box 113
Lewiston, CA 96052
(415)333-8000

FILED
AUG 21 2019

Plaintiff, in pro se
L.

SJfBJ?vP-8- DISTRICT court
EASTERN'oTSTR^oiSe
ALIFORNIA

5

BY

ui^urvClERU

6
7
8

IN THE UNITED STATES DISTRICT COURT

9

FOR THE NORTHERN DISTRICT OF CALIFORNIA

0RIG ML

10
11

PATRICIA A. MCCOLM

NO.

2:18-CV-02092-MCE-CKD

12
13

NOTICE OF APPEAL TO THE
UNITED STATES COURT OF
APPEAL, NINTH CIRCUIT;

Plaintiff,

14
15
vs.
16
17

STATE OF CALIFORNIA et al.

18
19

Defendants.

20
21
22
23

Notice is hereby given that PATRICIA A. MCCOLM, the plaintiff in the above named
cas e, PROCEEDING IN FORMA PAUPERIS GRANTED IN THE DISTRICT

COURT;

hereby appeals to the United States Court of Appeal for the Ninth Circuit from:

24
25
26
27
28

1) The JUDGMENT IN A CIVIL CASE (ECF 14) entered in this action on the 16th
day of April 2019; [The misleading “form” Judgment erroneously states: “This action came to
tnal or hearing before the Court. The issues have been tried or heard and a decision has been
1

Case 2.18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 2 of 48
1

rendered.” .There was neither a trial nor hearing. The Judgement further states that: “IT IS

2 II ORDERED AND ADJUDGED THAT JUDGMENT IS HEREBY ENTERED IN
3
4

ACCORDANCE WITH THE COURT’S ORDER FILED ON 4/16/2019.”]

A true and correct
copy of the Judgement being appealed in this case is attached hereto as EXHIBIT 1.

5
6

2) The ORDER (ECF No. 13) entered in this action on the 16th day of April 16,2019;

7 | stating: “1. The findings and recommendations are ADOPTED; stating that: “2. This action is
8

DISMISSED as duplicative;” and 3. The Clerk of the Court shall close this

case.” [The Order
9 | was based on the vague and ambiguous undefined term for the circumstances in this case as:
10

“duplicative,” without facts or law cited in support. No exact/duplicate copy of the “original”

11

complaint in this case (ECF 1) is filed in any State or Federal Court.] No issue on ^

12

~,case was adjudicated.] A true and correct copy of the ORDER entered 4/16/19 being

13

appealed in this case is attached hereto as EXHIBIT 2.

^

14
15

3) The magistrate judge's ORDER AND FINDINGS AND RECOMMENDATIONS

16 II (ECF 7) entered in this action on the 21st day of February, 2019 [recommending that this action
17

be dismissed as “duplicative;” selectively commenting on language in the complaint, without

18 | stating such comment is from its “Introduction,” and not from the facts or causes pled]
19

. A true
and correct copy of the ORDER AND FINDINGS AND RECOMMENDATIONS being

20

appealed in this case is attached hereto as EXHIBIT 3.

21
22

4) The magistrate judge’s ORDER GRANTING in part AND DENYING in part

23 II REQUEST FOR EXTENSION OF TIME TO FILE OBJECTIONS

(ECF 10) entered in this
24 | action on the 12th day of March, 2019. A true and correct copy of the ORDER GRANTING in
25

part and DENYING in part REQUEST FOR EXTENSION OF TIME TO FILE

26

attached hereto as EXHIBIT 4; which cut the amount of time requested,

27
28

2

OBJECTIONS is

verified as necessary for

Case 2.18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 3 of 48
1

accommodation of disability by plaintiff s physicians, is inherently potentially prejudicial.

2
3

5) The ORDER (ECF 17) entered in this action on the 24th day of July 2019, DENYING

4 II Plaintiffs Motion to ALTER OR AMEND ORDER OF DISMISSAL

AND FOR RELIEF
5 II FROM JUDGEMENT under FRCP 59(e) and 60(b); identified on the docket as a “motion for

6 | reconsideration.” A true and correct copy of the ORDER denying Plaintiffs Motion is attached
7

hereto as EXHIBIT 5

S

9
10

Copies of the Judgement and Orders being appealed are attached as Exhibits i.s
Plaintiff has not previously appealed the judgement and orders stated above or raised the

11 | issues pertaining thereto in a prior appeal or petition. THIS NOTICE OF APPEAL IS BEING
12

FILED SUBJECT TO A NEAR 20 YEAR OLD PRE-FILING ORDER IN

14

when time and disability limitations allow; with showing of good cause to vacate by passage of

01-80189; which
13 | Order is being respectfully requested vacated in a separate application; to be submitted hereafter

15 II time and discovery of the previously undiagnosed medical conditions which precipitated the prior
16

ineffective filings; filings, which were a good faith effort, designed to overcome the targeted

17

“stigma,” the false and defamatory media comment (“fake news”) plaintiff suffered as a person

18

with disability; regrettably, futile filings, plaintiff hoped would save home and reputation; such

19 relief, essentially prevented by medical impossibility from cognitive/physical decline re
20 I undiagnosed Hashimoto’s Disease, which ultimately inflicted black-outs nearing myxedema
21

coma. There are years of medical and financial detriment, trying to overcome disability from the

22 | missed diagnosis. Plaintiff has neither been able to fully recover from on-going effects of
23

Hashimoto’s Disease or even begin to recover from the overwhelming continuing prejudicial

24 | effects from the false and defamatoiy media comment and “stigma,” that appear to wrongfully
25

govern decisions made by others pertaining to plaintiff, in all walks of life; decisions based on

26

false assumptions from some 20 years ago; which has been denied a remedy by reason of medical

27
28

3

Case 2.18-cv-02092-MCE-CKD Document 18

1

Filed 08/21/19 Page 4 of 48

impossibility.

2

Now, this 73 year old, coping with age related decline and refusal to heal serious leg

3 | laceration injiuy; has yet another debilitating disability front a second auto-inunune disorder
4

belatedly diagnosed Multiple Scletosis; which, more likely than not, was also no, diagnosed in

5

the 1990s and which continues to threaten ability to accomplish daily activities of life

6

court expectations; in particular, where sufficient time is

; as well as,

not afforded for a good faith effort to
7 | overcome pain, confusion, lack of concentration/focus, memory loss of instant recall
, words and
8 much past learning, inability to be organized and focus being verbose and unable to “edit”
9 II effectively; all indicative of the progressive disease with declining
10
11

cognitive and physical

functioning; with inability to cope with the “

shut-down” distress at being the subject of targeted
abuse and deprivation of civil rights as occurred in the action at hand.

12

JUDICIAL NOTICE is resngctfnll

requested of verification of medical cnnriitinnc /
13 1 —ilatiollj of disability and recommendation for appointment of
as set forth by
14

plaintiffs physicians under seal in 2:12-CV-01984; the civil rights action ftled in 2012 re ADA

15

access and age/ADA employment discrimination.

16

Hie case at hand is,w the one filed in 7017; but arises from different facts and dates re

17 II incidents targeting Plaintiff in 2017; where without notice

and an opportunity to defend, onerous

18

conditions/restriction were imposed by a court clerk letter dated June 20,2017 on her use of

19

court services and presence in the public County building; in particular, a manifestly unjust and

20

prejudicial 15 minutes time limitation imposed under threat of being “put in cuffs” and “taken to

21

jail" by ceurt employee Marshals for nothing more than exceeding the 15 minute limitation

22

sitting quietly in her wheelchair Thus, the fear from threats and limited time of access to the
23 * court has essentially prevented plaintiff from going to the County services building for nearly a
24
25

year.
A true and correct copy of select paragraphs from the 2:18-CV-02092 complaint

26 J “STATEMENT OF FACTS,” which show the operative facts arise in 2017; is attached hereto
27
28

4

Case 2.18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 5 of 48
1
2

as EXHIBIT 6 and made a part hereof. Thus, also showing that the

magistrate judge’s ground
for dismissal re “duplicative;” questionably based on language ton, the “Intnrduction,” is wrong.

3

Plaintiff timely filed on March 11, 2019, OBJECTIONS TO MAGISTRATE JUDGE’S

4 I ORDER AND FINDINGS AND RECOMMENDATIONS (Doc 11)
, a true and correct copy of
5 J which is attached hereto as EXHIBIT 7 and made a part hereof.
6

Plaintiff timely filed a MOTION TO ALTER OR AMEND ORDER OF DISMISSAL

7 | AND FOR RELIEF FROM JUDGMENT DISMISSING ACTION; MEMORANDUM OF
8

POINTS AND AUTHORITIES, DECLARATION OF PATRICIA A.

MCCOLM WITH
9 | REQUEST FOR JUDICIAL NOTICE IN SUPPORT (Doc 15), a true and correct copy of which
10 J is attached hereto as EXHIBIT 8 and made a part hereof.
11

Plamtrff rs literally limping along begging for understanding of her medical limitations in

12 | seeking justice encouraged by media to say: “me too” and to “stand up forjustice” in the courts.
13

Plaintiff has tried to be brave; but must perforce, seek appointment of counsel

14

appeal by separate application hereafter; with request for Judicial Noti

15

filed.

16

in this important

ce of medical verifications

The statements of fact and law set forth above are incorporated by reference into the

17 II Statement of Facts and Law on Appeal set forth below:

18
19

STATEMENT OF FACTS AND LAW ON APPEAL

20
21

This case presents the Ninth Circuit with an opportunity to tell its lower courts that

22 II persons deemed “vexatious litigants” and persons with disabilities,
23

are still entitled to due
process, constitutional protections and the rights and benefits provided under the laws of the

24 || United States and its State courts.
25
26

In instant appeal, the constitutional violations running to the merits of the civil rights
complaint in this case, are not in issue; the District Court having made no factnai/i^gi

27
28

5

Case 2.18-cv-02092-MCE-CKD Document 18

Filed 08/21/19 Page 6 of 48

1

determination on the merits of anv claim

3

determined opinion bias of “frivolous” attributed to pro se complaints from the inherent “stigma”

It is the right to proceed in forma pauperis on a
2 J proper showing pursuant to 28 U.S.C. section 19.5, to this court is urged ,o protect against pre-

4 J attributed to such parties, precipitating unwaraanted dismissals. It appears that instant action met
5 | the wrongful gutllotme of bias and hostile opinion pertaining to Plaintiff individually, rather than
6

any issue of fact or law. No ruling issued on the objection to the referral for cause. The
7 magistrate judge findings states she “
expresses no opinion regarding the merits ofPlaintiffs
8 claims.” Thus, adopting the unfounded finding of “duplicative,”
tantamount to “frivolous” with
9 recommendation of dismissal (without leave to amend) is error and an apparent
abuse of
10 discretion.
11

The District Court concluded that instant action was “frivolous” because it was allegedly

12 II “duplicative” of a previously filed action in 2012 that is STILL PENDING in the SAME
13

DISTRICT COURT. Under these facts, the case should NOT have been dismissed; but
14 j considered for consolidation or deemed a properly f,led separate complaint or given leave to be a
15

separately filed “supplemental” complaint on subsequent facts to the date of the 2:12-CV-1984

16

complaint, where an “ amendment” is not timely and will not relate back to the original 2012

17 II complaint. It is wrong to suggest that the case is frivolous because it
18
19
20

was not brought through an

amended complaint in the first action. That is not a procedure available to plaintiff by time and
facts presented. The magistrate judge made a false assumption of “ sameness.”
According to the Federal Rules of Evidence, Rule 1001(e): “A ‘duplicate’ means a

21 | counterpart produced by a mechanical, photographic, chemical, electronic,

or other
equivalent process or technique that accurately reproduces the original.” Instant complaint
23 is NOT the “ same impression as the original;” not the same as the 2-12-CV-1984 complaint.
It is
24 | neither “duplicative” nor “frivolous” and should not have been dismissed.
22

25

No Ninth Circuit case or any case is cited by the District Court in support of its

26 | determination that instant case on its facts is “duplicative;” and thereby, deemed “frivolous,”
27
28

6

Case 2:18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 7 of 48
V

1

resulting in what appears to be a dismissal with prejudice, WITHOUT A FIRST LEAVE TO

2

AMEND! A first leave to amend is usual. There appears to be no justification for denial of a

3

right to amend. A dismissal as allegedly “frivolous”in instant case, may have an unwarranted

4

prejudicial impact on the pending case. Perhaps there is no clear authority on the issues raised by

5

this action.

6

Plaintiff could find no case in which the Ninth Circuit has determined the 1) definition of

7

^duplicative” where two cases are filed in the same U.S. District Court some six years apart (not

8

arising out of the same facts, not arising at the same time with all the same defendants and not an

9

exact copy) with the first still pending; 2) what criteria is to be applied for determining whether

10

or not a case is “duplicative,” 3) whether the second filed case mav be deemed frivolous

11

under ms where to tost filed case is not an exact copy, is still pending and not dismissed as

12
13
14

frivolous and where there has been no determination of fact or law applicable to the merits of
any cause set forth in the second complaint (where all facts/causes are not the same as that first
4) whether an alternative to dismissal is available: 51 consider what remedy will avoid

15

possible prejudice to a falsely alleged “same” pending action and 6) what remedy will afford

16

constitutional right of access to the court in the second action and in the Superior Court.

17

An important issue appears to be whether limitation on physical access to and time

18

limitation on access to court services, under threat of arrest in a civil context; as occurred

19

in this action, is a violation Plaintiffs constitutional rights and what remedy is available for

20

relief from such deprivation? And, is it a due process violation for the apparent retaliatory

21

onerous restrictions imposed on plaintiffs first amendment rights and all prejudice

22

resulting therefrom; in particular, right of access to court services, a due process violation?

23

There is a substantial question as to whether it is appropriate for a District Court to adopt

24

a recommendation for dismissal as allegedly “duplicative” in a pro se action under 28 U.S.C.

25

1915; where there are less drastic/prejudicial remedies available; e.g. 1) First Right to Amend; 2)

26

Consolidation, 3) Supplemental Complaint? And, where there may be other less drastic remedies

27
28

7

Case 2:18-cv-02092-MCE-CKD Document 18

1

Filed 08/21/19 Page 8 of 48

known to this Court.

2

As referenced above, it appears that the District Court w
as wrong in adopting the
3 II magistrate judge’s position that plaintiff should have
amended the 2:12-CV-1984 complaint;
4 II instead of filing instant complaint. An amended complaint concerns events which took pi
ace
5 before the original pleading was filed and must be based on the same operative facts as those
6

forth m the original complaint. A supplemental complaint sets forth allegations concerning

7

matters which have taken place since the original pleading was filed.

set

Keith v Volpe (9th Cir.
1988) 858 F2d 467,468. In light of the relationship back to date the action
was commenced and
9 j statute of limitations problems, amended complaints are not appropriate on facts/claims
8

10

subsequent to the commencement of the action. Supplemental complaints may have similar

11

problems and do not apply to unrelated claims; thus, the pleader is NOT

12

required to bring
a supplemental complaint on separate claims that arose after the filing of the original complaint;

13

but should bring a separate lawsuit, as did Plaintiff in instant

14

(11th Cir. 1992) 952 F2d 1355, 1359-1360.

15

action. Manning v City ofAuburn

Be there any matter for which the Ninth Circuit deems additional information

would be
16 J helpful, Plaintiff respectfully requests an accommodation of disability/extension of time to cure
17

any deficiencies in this NOTICE OF APPEAL / STATEMENT OF FACTS AND LAW

18

APPEAL. Your kind consideration is appreciated.

ON

19
20

21

Plaintiff respectfully submits: The issues in this appeal are substantial and warrant
further review.

22

23

Dated: August 19,2019

24

PATRICIA A. MCCOLM---Plaintiff and Appellant, pro se

25
26
27
28

8

Cclll:ite0oI°o9922:Mg|:gKKg DocumemM8

P^iiM48

i*

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE
PATRICIA A. MCCOLM,
CASE NO: 2:18-CV-02092-MCE-CKD

V.
STATE OF CALIFORNIA, ET AL.,

IT IS ORDERED AND ADJUDGED

SSSSSSSSSSSS«Mlg,“ ™ACC0RDANCE W1™ WE
Marianne Matherly
Clerk of Court
ENTERED: April 16,2019
bv:_/s/ K.

Deputy Clerk

exhibit

-V

D82SSS2& FS°oS ptgl i°0f°248
1
2
3
4

5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10

11

PATRICIA A. MCCOLM,

12
13
14
15

No. 2:18-cv-02092-MCE-CKD (PS)

Plaintiff,
v.

ORDER

STATE OF CALIFORNIA, et al.,
Defendants.

16
17
18

On February 21,2019, the magistrate judge filed findings and recommendations (ECF No.
7), which were served on the parties and which contained

notice that any objections to the

19

findings and recommendations were to be filed within fourteen days. Plaintiff was subsequently

20

given until March 25,2019 to file any objections. (ECF No. 10.) On March 11 and 14,2019,

21

plaintiff filed objections to the findings and recommendations (ECF N

22
23
24

os. 11,12), which have

been considered by the court.
Thisc ourt reviews de novo those portions of the proposed findings of fact to which an

25

objection has been made. 28 U.S.C. § 636(b)(1); McDonnell Douglas Corp. v rn----- ^
Business Machine 656 F.2d 1309, 1313 (9th Cir. 1981); sgejjso Dawson v. Marshall
p.3d

26

930,932 (9th Cir. 2009). As to any portion of the preposed findings of fact to which

27

has been made, the court assumes its correctness and decides the matte

28

no objection
SgeOrand v. United Static, 602 F.2d 207,208 (9th Cir.
1

EXHIBIT ^ ^

r on the applicable law.

1979). The magistrate judge’s

<4

fcLe mI-^-mm^-mce-ckd Document
Document18
13

SB

•»*
1
2
3
4

5

conclusions of law are reviewed de

n0V0* ~ Mtt v. Simi Valley Unified School Dkt 708 F.2d

452,454 (9th Cir. 1983).
The court has reviewed the applicable legal standards and,

good cause appearing,
appropriate to adopt the findings and recommendations in full.
Accordingly,
IT IS HEREBY ORDERED that:
concludes that it is

6

1. The findings and recommendations (ECF No. 7) are ADOPTED.

7

2. This action is DISMISSED as duplicative.

8

3. The Clerk of Court shall close thi s case.

9

IT IS SO ORDERED.

10

Dated: April 15,2019

11
12

MORRISON C. ENGLAM >,JR
UNITED STATES DISTRI

13
14
15
16
17
18

19
20
21
22
23
24

25
26
27
28
2

s
< -ase 2.18-cv-02092-MCE-CKD Document 18
Filed 08/21/19 Page 12 of 48
Case 2:18-cv-02092-MCE-CKD
Document? Filed 02/21/19 Page lot3

2
3
4
5
6
7
8

united states district court

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11 I

PATRICIA A. MCCOLM,
No. 2:18-cv-02092-MCE-CKD PS

12

Plaintiff,

13

V.

|
15

ORDER AND FINDmns a Ain
miOMMENDATtniTg

STATE OF CALIFORNIA, et al.,
Defendants.

16
17

Plaintiff Patricia A. McColm, who proceeds without counsel, filed this action on August

18 | 1,2018 and requested leave to proceed in forma pauperis pursuant to 28 U.S.C.

20

§ 1915. (ECF
Nos. 1,2.)1 On September 18,2018, United States Maei
gistrate Judge Dennis M. Cota granted
plaintiffs motion to proceed informa pauperis and indicated that the court would address

21

separately the sufficiency of plaintiff s

19

22
23
24

complaint and whether service of the complaint is
appropriate. (ECF No. 5.) Subsequently, this matter was reassigned to the
undersigned on
January 1,2019, due to Magistrate Judge Cota’s recusal. (ECF No. 6)
Pursuant to 28 U.S.C. §1915. the court is directed

dismiss the case a, any time if „

25

determines that the allegation of poverty is untrue, or If ft. action is frivoious or malicious, fails

26

to state a claim on which relief may be granted,

or seeks monetary relief against an immune

27
28

§ 636(bXl')PrOCeedS bef°re ,he U"<tesi«ned P“™ant to E.D.
1

EXHIBIT ."*?■ ii'

Cal. L.R. 302(c)(21) and 28 U.S.C.

^ase 2:18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 13 of 48
Case 2:18-cv-02092-MCE-CKD Document 7 Filed 02/21/19 Page 2 of 3
1

defendant. For the reasons discussed below, the court concludes that this action is frivolous

2

because it is duplicative of an action that was previously filed in this

3

court recommends that the instant action be dismissed.

4

court. Accordingly, the

On July 30,2012, Patricia McColm commenced an action against the State of California,

5

Trinity County, various superior courts, and several public officials. See generally MeTnin. v

6

Trinity County etal., 2:12-cv-01984-MCE-AC, ECFNo I.

7

first amended complaint in that action, alleging that the

On May 30, 2018, McColm filed the

8
9
10

County building facilities, 2) non-compliance with ADA mandate to
provide access to the court and accommodate limitations of disability
}!?
County Superior Court services; 3) non-compliance with
Constitutional rights of Plaintiff; including but not limited to
requirements to provide access to the court and court services... Tas
well as 13 other alleged and enumerated violations].

11
12
13

14 j MeColoj, 2:12-cv-0!984-MCE-AC, ECF No. 38 at 2-3 (emphasis in original). Thatmatt.rUs.nl
15 j pending.
16
17
18
19
20
21
22
23
24
25
26

Plaintiffs October 1,2018 complaint in this action brings claims against the State of
California, Trinity County, various superior courts, and several public officials, alleging that the
action arises out of [a] CONTINUING retaliatory “protectionism”
agreement {letter imposition of restrictions on Plaintiffs access to
the court imposed without notice and opportunity to oppose) among
all named defendants (See Related 2:12-cv-l984) occasioned by fear
of litigation from Plaintiffs complaints of defendants’* I) *---noncompliance with American’s With Disability (ADA) access
requirements in Trinity County building facilities, 2) noncompliance with ADA mandate to provide access to the court and
accommodate limitations of disability in Trinity County Superior
3) non-compliance with Constitutional rights of
n0t im‘ted t0r’ reclu^ements to provide8access
=nuteSvai„1aS]!erV,“S ' ’'We" * 13 °'her al"*ed a"d
(ECF No. 1 at 2-3 (emphasis in original).)
It is apparent that the instant matter concerns the same essential parties and nearly

27

identical allegations as McColm. 2:I2-cv-01984-MCE-AC.

28

matters are related. Additionally, much of the complaint here is identical to the first amended
2

Plaintiff even indicates that the two

< ^ase 2.18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 14 of 48
Case 2:18-cv-02092-MCE-CKD Document? Filed 02/21/19 Page 3 of 3
1

compiain, i„ the previous action. (Compffi ECF No.! jvjsh Msfiala, 2:I2-cv-01984.MCE-AC

2

ECF No. 38.) To the extent that plaintiff is adding new defendants and/or new claims, th

3

properly brought through an amended complaint in McColm.

4

as a new case.

5
6

Therefore, the court recommends that the i
instant action be dismissed as duplicative In
recommending dismissal of this action, the court expresses no opinion regarding the merits of

7

plaintiffs claims.

ese are

8

Accordingly, IT IS HEREBY RECOMMENDED that:

9

1. This action be dismissed as duplicative.

2:12-cv-01984-MCE-AC, and not

10

2. The Clerk of Court be directed to close this case.

11

In light of these recommendations, IT IS ALSO HEREBY ORDERE
D that all pleading,

discovery, and motion practice in this action are STAYED pending resolution of the find!
13 | recommendations. With the exception of objections to the findings and recommendations"!
14

any non-frivolous motions for emergency relief, the court will

15

not entertain or respond to any
motions and other filings until the findings and recommendations are resolved.

16
17
18
19
20
21

22

These findings and recommendations

are submitted to the United States District Judge
assigned to the case, pursuant to the provisions of 28 U.S.C. § 636(b)(1).
Within fourteen (14)
days after being served with these findi
ngs and recommendations, any party may file written
objections with the court and serve a copy on all parties. Such a document should b
e captioned
“Objections to Magistrate Judge's Findings and Recommendations."
Any reply to the objections
shall be served on all parties and fried with the court within fourteen (14) days after service of the
objections. The parties are advised that failure to fil

23

waive the right to appeal the District Court’s order.

24

Cir. 1998); Martinez v. Vlct 95] p ^d 1153,

25

Dated: February 21, 2019

e objections within the specified time may
Turperv. Duncan, 158 F.3d 449,455 (9th

1156-57 (9th Cir. 1991).

26
27

CAkULYN K. DELANEY
'---------UNITED STATES MAGISTRATE JUDGE

28
3

Tc^1218'w2020Q? Mrc rSn D°cument 18 Filed 08/21/19 Page 15 of 48
uase 2.1B cv-02092-MCE-CKD Document 10 Filed 03/12/19 Page 1 of 2
1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

PATRICIA A. MCCOLM,

12

Plaintiff,

13
14

No. 2:18-cv-02092-MCE-CKD (PS)

v.

ORDER

STATE OF CALIFORNIA, et al.,

15

Defendants.

16
17
18

On February 21,2019, the undersigned recommended that thi

s action be dismissed as
duplicative and ordered that “ [wjithin fourteen (14) days after being served with these findings

19 I and recommendations, any party may file written objections with the court and serve a copy on all
20

parties.” (ECFNo. 7 at 3.)

21
22

On March 4, 2019, plaintiff requested a sixty-day extension of time to file objections.
(ECF No. 8.) Plaintiff, who proceeds without counsel,

23

asserts that she requires an extension
through May 10,2019 due to “medical necessity to accommodate limitations of disability/medical

24

condition, [and] to avoid prejudice therefrom.”

26

(I<L) Plaintiff also requests judicial notice “of
medical verifications/declarations filed under seal in this court”
which purportedly support her
need for an extension. 04) However, plaintiff has failed to indicate where these medical

27

verifications/declarations can be found, as nothing has been filed under seal in the current c

28

till

25

A

ase.
1

EXHIBIT 4

SSe2fcS5S»51cclglS BSi)8
1

While the court is sympathetic to plaintiffs medical condition, she has failed to

2

demonstrate good cause as to why she requires sixty additional days to file objections. The

3

pending findings and recommendations do not involve numerous or complex legal issues

4

. Rather,
the undersigned has recommended closing this case after determining that it is duplicative of

$

McColm v. Trinity County etal. 2:12-cv-01984-MCE-AC, which remains open and before the

6

court. (See ECF No. 7.) Nevertheless, based upon plaintiffs limited showin

7

g and because she
proceeds without counsel, the court will grant plaintiff a two-week extension of time to file

8

objections.

9

Plaintiff has also filed an objection to the assignment of a United States Magistrate Judge

10 | for all purposes. (ECF No. 9.) However, this case has not been

assigned to a Magistrate Judge
11 j for all purposes. Indeed, the court has acknowledged plaintiffs decision to d
ecline the
12 I jurisdiction of a Magistrate Judge. (See ECF No. 4.)
13
14

15

At the same time, the Local Rules provide that a Magistrate Judge shall be assigned “all
actions in which all the plaintiffs or defendants are proceeding jn propria

Lersona [i.e. without

counsel], including dispositive and non-dispositive motions and matters.”

16

E.D. Cal. L.R.
302(c)(21); seeaiso 28 U.S.C. § 636(b)(1). Pursuant to this, the assigned Magistrate Judge shall

17

submit findings and recommendations to the assigned United States District Judge for all

18

dispositive motions and matters, and the District Judge shall make the final determination

19

regarding each such issue. Therefore, the undersigned has submitted the pending findings and

20

recommendations to United States District Judge Morrison C. England, Jr., who will make the

21

final determination regarding whether this case shall be closed as duplicative.

case

22

Accordingly, IT IS HEREBY ORDERED that:

23

1. Plaintiffs request for an extension of time (ECF No. 8) is GRANTED IN PART

24

DENIED IN PART.

25

2. Plaintiff shall have an additional fourteen (14) days until March 25,2019 to file

26
27

28

and

written objections to the pending findings and recommendations (ECF No. 7).
Dated: March 12,2019
14

CAROLYN K. DELANEY
*
~
UNITED STATES MAGISTRATE JUDGE

(<ase 2.18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 17 of 48
Case 2:18-cv-02092-MCE-CKD Document 17 Filed 07/24/19 Page 1 of 2

V

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

EASTERN DISTRICT OF CALIFORNIA

10
11

PATRICIA A. MCCOLM,

12

Plaintiff,

13
14
15

No. 2:18-cv-02092-MCE-CKD

v.

ORDER

STATE OF CALIFORNIA, et alM
Defendants.

16
17
18
19

Presently before the Court is Plaintiff Patricia A.

McColm’s (’‘Plaintiff’) Motion to

Amend Order, ECF No. 15, asking this Court to

reconsider its dismissal of her complaint,
ECF No. 13. A court should not revisit its own decisions unless extraordinary

20 J circumstances show that its prior decision
21
22
23
24
25
26

was wrong. Christianson v. Colt Indus
Operating Corp.., 486 U.S. 800, 817 (1988). This principle i
is generally embodied in the
law of the case doctrine. That doctrine counsels
against reopening questions once
resolved in ongoing litigation. Pyramid Lake Painte Tribe of Indian. „
, 882 F.2d
364,369 n.5 (9th Cir. 1989) (citing 18 Charles Aland Wright & Arthur R.
Miller, Federal
Practice and Procedure § 447ft) Nonetheless,
a court order resolving fewer than all of
j the claims among all of the parties "may be revised at any time before the entry of

27

judgment adjudicating all the claims and the parties' rights and liabilities." Fed. R. Civ. P.

28

54(b). Where reconsideration of a non-final order is sought, the court has "inherent
1

Exhibit

tens 19 ^mus

s

1

jurisdiction to modify, alter or revoke if United States v. Martin 226 F.3d 1042,1048-49

2

Oth Cir. 2000), ssfl^gnjed, 532 U.S. 1002 (2001). The major grounds that justify

3

reconsideration involve an intervening change of controlling law, the availability of new

4

evidence, or the need to correct a clear error or prevent manifest injustice.

5

882 F.2d at 369 n.5.

Pyramid.

6

Local Rule 2300) requires a party filing a motion for reconsideration to show the

7

new or different facts or circumstances are claimed to exist which did not exist or were

8

not shown upon such prior motion, or what other grounds exist for the motion."

E.D. Cal.
9 I Local Rule 2300). Mere dissatisfaction with the court's order, or belief that the court is
10

wrong in its decision, is not grounds for relief through reconsideration.

^

Xwentieth Century-Fox Film Corp. v. Dunnahnn 637 F.2d 1338,

See, e.g.

1341 (9th Cir. 1981).

12

A district court may properly deny a motion for reconsideration that simply

13

reiterates an argument already presented by the petitioner. Maraziti v. Thnme 52 F.3d

14

252,255 (9th Cir. 1995). Finally, reconsideration requests are addressed to the sound

15 | discretion of the district court. Turnery. Burlington N
16
17

Santa Fe R.R.. 338 F.3d 1058,

1063 (9th Cir. 2003).
Plaintiffs motion (ECF No. 15) is DENIED because she does not point the Court

18 | to any basis for revisiting its prior decision. None of Plaintiffs arguments are based on
19

an “intervening change of controlling law, the availability of new evidence,

or the need to
20 J correct a clear error or prevent manifest injustice.” Pyramid. 882 F.2d at 369 n.5.

21

IT IS SO ORDERED.

22 | Dated: July 23, 2019
23
24
25

MORRISON CTENGLAM >, Jl
UNITED STATES DISTR

26
27
28
2

Case 2:18-cv-02092-MCE-CKD Document 18 Filed 08/21/19

Page 19 of 48

1

SELECT PARAGRAPHS FROM 2.-18-CV-02092 STATEMENT OF FACTS

2

SHOWING THE 2017 DATE OF OPERATIVE FACTS IN AfTTOTV

3
4
5

6
7
8

29. The June 20, 2017 letter is without truth, proof of fact or authority, which
Defendant Holliday knew and/or should have known forms no basis for the

apparent retaliatory
restriction on the Plaintiffs exercise of civil rights; including but not limited to her
constitutional
right of access to the court/court services.
30. The June 20,2017 letter placed discriminatory limitations/requirements on Plaintiff

9

in contravention of her needs as a person with disability with restrictions clearly designed to

10

prejudice her defense in any and all matters past and pending in the Superior Court of Trinity

11

Court and Court of Appeal; as well as, her exercise of constitutional rights re civil rights

12

complaints pending before the U.S. District Court; in particular, by preventing di scovery

13

of spoilation and/or acquisition of evidence.

14
15

31- Plaintiff objected to the letter in a response of June 21.2017 is

16

EXHIBIT B and incorporated herein by reference as though fully set forth herein, Said letter
also incorporated a PUBLIC RECORDS REQUEST. Further, Plaintiff sent a formal PUBLIC

17

RECORDS ACT REQUEST to the Defendants CEO/BOARD OF SUPERVISORS, TRINITY

18
19

COUNTY and Trinity County Department of Health and Human Services. There was NO
RESPONSE by Defendants Staci Warner Holliday for Defendant State of California Superior

20

Court of California or Defendants CEO/Board of Supervisors for Trinity County, even though a

21

repeat/renewal request was made directly to the Trinity County Administrator, The request
included all ADA related documents; including but not limited to all requests, plans and

22
23
24

structural changes to comply with the ADA, none of which were supplied to Plaintiff, There
was a noticeably incomplete response to the Public Records Act Request to Trinity County

25

Health and Human Services missing all documents that pertain to Plaintiffs records regarding

26

the issues presented in 2:12-cv-1984. Plaintiffs requests for compliance were ignored by all

27

Trinity County/Superior Court Defendants.

28

32. At no time has Plaintiff received a response or modification of the June 20,2018

BXiii

)

Case 2.18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 20 of 48

1
2
3
4

letter or restrictions set forth therein. Thereby, after 15 minutes “

were up,” all defendant clerks
REFUSED TO RESPOND TO INQUIRY OR PROVIDE SERVICES i
ignoring Plaintiff and/or
telling her she had to leave. Each knew and/or should have known that their actions were in
violation of Plaintiffs constitutional and civil rights.

5

33. The demands by Defendant Court Clerks; included, but were

6 II demands that Plaintiff not just leave the public area adjacent to the
7 I (which public area was also adjacent to other Trinity County
8

not limited to

court clerk filing windows

services); but the ENTIRE
COUNTY SERVICES BUILDING, using Defendant Marshall Garth Padrotti and Dep.

9 | Marshall Bruce Black, among other Dep. Marshall Doe Defendants, to make such demand
10 on occasion, with them making verbal insults in the process under threat of arrest and being
11 II “bodily removed,” if there was delay in compliance.
12

34. On June 22,2017, Plaintiff appeared at the court building entry door in her personal

13 II wheelchair which is not accessible by persons with disability by reason of non-compliance with
14 II door size/openers; thereby requiring necessity for a third party t

16

o open same and as previously
noticed, some Marshall employees of the court; including Defendant Bruce Black
, have refused
to open and/or timely open the entry door, telling Plaintiff to open the heavy doors herself: even

17

when Plaintiff had surgery on her shoulder!

15

18

35. The entry doors are NOT accessible by persons with disability, having no push button

19 J for automatic opening. The interior courtroom and other interior doors

are also without such
20 automatic access. On information and belief, it has been only within the p
ast year, that any effort
21 I was made to make the width of the courtroom entry doors wheelchair accessible.
22

36. On information and belief, the interior courtroom area tables for parties pro per or

23 II attorneys remains inaccessible.”
24
25

...
“40. Defendant Trinity County is on notice that use of a wheelchair is difficult for

26 | persons with disability in that there is a substantial incline of the walkway entrance to the court
27
28

services and Trinity County recorder’s offices which requires Plaintiff, who

cannot use her hands
to move a manual wheelchair, to use her feet to push the wheelchair backward
up the incline; not

SXHIBIT

Case 2:18-cv-02092-MCE-CKD Document 18 Filed 08/21/19

1

Page 21 of 48

2

otherwise having access to the services window. Although a Group III Power Chair has been
ordered by an ALJ acting for the California Department of Social Services, such is awaiting

3

compliance by Partnership Health Plan and any such would be impossible for Plaintiff to

4

carry in
her present vehicle; and thus, she must be able to traverse the incline to access both County and

5

Court services.

6

41. Defendant Trinity County and the Superior Court is also on notice that the court

7

services counter; purportedly for persons with disability, is also essentially not accessible where

8

the counter was constructed to be close to the entry door for the clerks where claimant has been

9

hit by the door being opened by Defendant Marshall Pedrotti, Defendant Rosanna McCall

10
11

and others in the process of entry.
42. Plaintiff has been told repeatedly to move her wheelchair by Defendant Clerks and

12

Marshal Pedrotti causing more delay and denial of timely access to services limited by the 15

13

minutes.

14

43. The limited time has been repeatedly used up by frivolous activity by the clerks to

15

cause delay and deny access to files/review of same and/or other services necessary to a fair

16

adjudication of her court matters.

17

44. Defendant clerks have repeatedly REFUSED to provide access to Plaintiffs ADA

18

file and have repeatedly REFUSED to call the Court Executive Officer/ADA coordinator to

19

obtain access. Clearly, 15 minutes cannot allow for review of approximately three inches of

20

ADA court records in the case on appeal or in any other matter. Thereby, Plaintiff has been

21

essentially denied access to her own ADA records.

22

45. Defendant Clerk Cooke Haney REPEATEDLY refused to accommodate

23

Plaintiffs hearing loss, walking away to sit in her enclosed cubicle when a question is asked;

24

thereby, forcing Plaintiff to repeat the inquiry at a louder volume, reminding said clerk supervisor

25

that she is hard of hearing, does not know how loud she speaks and needs an accommodation by

26

the clerk returning to the counter and/or having the clerk talk loud enough from her cubicle for

27

Plaintiff to hear and comprehend the speech. Said defendant has repeatedly ignored Plaintiffs

28

requests, either having refused to either listen to or respond to Plaintiffs inquiries causing delay

EXHIBIT

£/<•.)

Case 2.18-cv-02092-MCE-CKD Document 18

Filed 08/21/19 Page 22 of 48

and then saying: ‘Tour time's up!”
2

46. Without any cause whatsoever, other than perhaps that Plaintiffs “time is up,”

4%

3

Defendant Cooke Haney has repeatedly called the Marshall fern her cubicle to come and get

i.

Plaintiff to leave; in particular, when there is a question, said clerk does NOT want to answer or

5

document said clerk does not want to copy for Plaintiff; whether or not the “time is up.”

6
7
8

9

47‘ At the court services window nn .w ??

2012J)efendant Clerk Supervisor,
Laurie Cooke Haney, failed to provide access to court services and administrative
records
requested by Plaintiff, denying time to review any file in Plaintiffs past and/or pending
court/administrative matters; and instead, walked away saying: “ Your times up. ”

10

48. Defendant clerk supervisor Cooke Haney and all deputy court clerks refused sendees

11

following the assertion that claimant’s 15 minutes had tun; even though there were no other

12

customers in the office. Defendant Cooke Haney went into her sealed off cubicle; ignoring

13

Plaintiff, who quietly sat in her wheelchair in the public anteroom of the court services and

14

County Recorder’s Office area contemplating her papers and schedule to the County Reconier’s

15

Office.

16

49. Almost immediately, Defendant Dep. Marshall Will Rovles showed up and

17

aggressively demanded that Plaintiff leave the area without stati ng cause or actual order;

18

threatening arrest, if she did not leave.”

19
20

“60. There is no basis in law or fact for any restriction on Plaintiffs

24

access to court
services. Plaintiff has NOT been given notice and opportunity to be heard at a hearing
on any
restriction on access to the court in place at this time, a due process violation.
Requests by
Plaintiff for due process has been ignored without a resp onse.
61. Defendant court employees have regularly refused to provide court services and

25

further abused authority by using the court employee Marshall service without cause, to threaten

26

arrest and taking Plaintiff to jail; in order to, get Plaintiff to leave the public areas of the

27

court/Trmity County building; apparently as a “set up” for the threat of imposing more

28

restrictions if she exercises her constitutional right of access to the court.

21
22
23

EXHIBIT

fi j

t,

Case 2:18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 23 of 48

1

62. It appears that the unlawful restrictions and threats are designed to hide the discovery

2 II of the pervasive manipulation, omissions and apparent falsification of court minutes and records
3

to prejudice Plaintiff; to which, Plaintiff has previously and continues to object without
action
4 being taken by Defendants to
correct or even respond to her written objections.
5
63. Thus, there is a showing that th
e court employee misconduct is intentional, retaliatoiy
and malicious infliction of emotional distress, interference with exercise of civil rights and
7

clearly ADA discrimination/retaliation and violation of Plaintiffs
constitutional and civil rights.”

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Exmarr^r^)

Case 2:18-cv-02092-MCE-CKD Document 18 Filed 08/21/19 Page 24 of 48

I’ATRICIA A. MCCOLM, J.D
I'.O. Box 113
-uwiston, CA 96052
'‘115)333-8000

1by Appointment

O
&

June 21,2017

>

^ Jiliaix Holliday, Court Executive
U >
COUNTY SUPERIOR COURT
hj :3
Box 1208
%
^paverville, CA 96093 and
r. x to: (530) 623-8397 and 623-3762

hi

LSF T>J!VAMAvnw6*Z?.iiV McColm: OBJECTION TO UNRESPONSIVE

F.
Jl I.TO20DMT7^nSo^S^!CRIMINatoRV AND RETALIATORY LETTER OF

T un v

1;!™

A,

IN G clerICAL MISCONDUCT WITH REFUSAL TO
RRR0R GtvING appearance of intentional
/

Di-ar Ms. Holliday:
I respectfully disagree with your letter of June 20, 2017; which noticeably is NOT
responsive to the inquiries which make tire faxes necessary, confirming the failure to give notice
re squested correction of clerical error by vacatur of the invalid default and failure to respond to
rei. lest to calendar hearings; as well as, the failure of the Superior Court clerk(s) to timely
pr. rare the record on appeal as required by the California Rules of Court.
Your letter merely confirms the intended - LACK OF ASSISTANCE and the
dis irimmatory / retaliatory abuses being imposed on this Appellant; under false and defamatory
priaense and innuendo, to unconstitutionally deny access to the court and prejudice the
Accordingly, the faxes are NECESSARY to make a RECORD of the FACT of clerical
S rnia'^amely C°URTE0US “cess public information and

Courtl undM your “■ -shown by

1

JL

Case 2.18-cv-02092-MCE-CKD Document 18

Filed 08/21/19 Page 25 of 48

E;&:aolt/piftpf.of service to prejudice this party. Thus, it appears you are raising the concern that
ym.;. continuing misrepresentations and misconduct of the clerks of the Trinity court continue to
bo actionable; in particular, from the apparent intended discriminatory infliction on this party, of
scv-ire physical and emotional distress from denial of accommodation of disability, taking
retaliatory advantage thereof. After all, you know my medical limitations, you were the ADA
ccn.i.dinator, who falsely alleged accommodation applications received were missing (without
tinifily notice of such allegation to this party) and who acted to delay accommodation requests to
jitr. ;;ss to inflict denial of accommodations in this action!

.
K 1 ,UOPR- The inference from your questionable demand, gives the FALSE
imp assion that the alleged “blocking,” is intentional and/or that your demand is that this

sef ! icLNoffich >TaUR ^LLfgedly accessible counter in the court

K? T**??*" Acc0rdmg^ * appears use of the disability counter is inherently
S: i~^flV1?atl0n 0fthe ADA 3X16 your FALSE assertion and inference of intentional
HAP
1S remarkably DISCRIMINATORY and nothing short of
A* ^SMENT! The proper action is to provide an accessible counter where there is no
inheK ? CRFAT^n k
COD'
** °P/?ti0n °f ** d°°r t0 aV0id ** Conflict; a conflict Y0UR
ote'-fde o^e^S Pla<re^ of tbe ADA counter at the door location rather than at the
for ac :ommod^ia tva
A Change t0 Said WaI1 location wouId be appropriate
useru move Pvenwh
ADA c°onter! Itjs unreasonable to repeatedly ask a wheelchair
t
“7 ' -—en the door can be opened to allow clerk access. And. Istronvlv OBJECT.

Im

P and tQ C0urt staff HITTING 0F THE

dear;\:cess provided!

even before askim for a move: in particular, where there is

DISCI IMINATORY ABUSE AND HARASSMENT, which the faxes and my prior requests
tor doc. .ments regarding the building changes creating the door conflict, have brought to y our
attention; yet, you have failed to so act; and instead, have acted to “kill the messenger!”
I nave yet to receive the documents requested of the applications and building changes
C0Urt services building bathrooms and placement of the ADA counter YOU ARE

S;'rCQOMs™QT„0EPS?OVmE SA,D D0CUMENTS

TOTmSARL

u ! l;?tef!0^Tt? ^.ontbiye
retaliatory false and misleading defamatory “set-up,” to create
n excu;s! to BULLY and intimidate, this senior disabled person; with unconstitutional
°faUth0rity’in order t0 avoid compliance with the law, is NOT
ALLbr l.f’.iBLE!
2

Case 2.18-cv-02092-MCE-CKD Document 18

Filed 08/21/19 Page 26 of 48

—.21ll

Your courtesy, cooperation and early attention to this matter is appreciated.
Sinvstelv,
'atrof^c McColm

3

PteiM48

,*

l
2

ORIGINAL

PATRICIA A. MCCOLM
P.O. Box 113
Lewiston, CA 96052
(415)333-8000

3
4

Plaintiff, pro se

FILED

5

MAR 11 20ig

6
7

IN THE UNITED STATES DISTRICT COURT

8

FOR THE NORTHERN DISTRICT OF CALIFORNIA

9
10
11

PATRICIA A. MCCOLM

12

NO. 2:18-CV-2092-MCE-CKD

Plaintiff,
OBJECTIONS TO MAGISTRATE
JUDGE’S ORDER AND FINDINGS
AND RECOMMENDATIONS.
REQUEST TO VACATE REFERRAL
FOR GOOD CAUSE EXTRAORDINARY
CIRCUMSTANCES AND TO REASSIGN
PER RULE 123(c) RE RELATED CASE.

13
14
15
16

[FRCP 72(b)(l-3); FRCP 73(b)(3);
FRCP 83, Local Rule 123]

17
18
19

REQUEST FOR HEARING

vs.

20

21
22

TRINITY COUNTY
etal.
Defendants.

23
24
25

26
27
28

TO HONORABLE LAWRENCE J. O’NEILL, CHIEF UNITED STATES DISTRICT
JUDGE:
Pursuant to Federal Rules of Civil Procedure 72(b), Local Rules 304, Plaintiff PATRICIA
1

CXHmiT ^

‘

<

Case 2:18-cv-02092-MCr
Case 2:18-cv-02092-MC

'KD Document 18
U<D Document 11

.*

suw: Pp?mM8

1

A. MCCOLM (Plaintiff) does hereby respectfully OBJECT, in its entirety and each contention

2

therein, to Magistrate Judge’s ORDER AND FINDINGS AND RECOMMENDATIONS

3

(O&R&R) to dismiss the "action as duplicative f issued by Magistrate Judge Carolyn K. Delany

4

(Magistrate Judge) on grounds that the order, findings and recommendations are factually

5

erroneous, lack citation to authority, and appear to be against law to prejudice plaintiff, as

6

specifically stated below; objects and moves to vacate referral pursuant to FRCP 73(b)(3) and

7

28 U.S.C. section 636(c)(4), for good cause/extraordinary circumstances as more fully set forth

8

below and further moves for the Court’s kind consideration pursuant to FRCP 83, Local Rule

9

123(c), for reassignment pursuant to prior notice and allegation by the Magistrate Judge that the

10

action is related to 2:12-cv-1984; as stated below with hearing requested:

11
12
13

Plaintiff objects to the lack of factual findings and prejudicial omission of fact and
authority in the Q&R&R; as well as, to the misstatements/false assumptions in O&R&R as

14 follows;
15

The Magistrate Judge recommends that the instant action be dismissed for reason

16 that she “concludes that this action isfrivolous because it is duplicative ofan action that was
17 previouslyfiled in this courtr The Magistrate Judge makes no finding of fact or law in support
18

of her conclusion that instant action is deemed “frivolous” or “duplicative” under 28 U.S.C.

19 section 1915 and subject to dismissal thereby. The action is neither “frivolous” nor
20

21

“duplicative.”
The Magistrate Judge ADMITS she has “expressed no opinion regarding the

22

merits of plaintiffs claims.” There is no authority stated that shows a dismissal is appropriate

23

where there is no finding on the merit of the facts/causes of action. On the contrary, a dismissal

24

under 28 section 1915 can only be found to be “frivolous” if it lacks an arguable basis either in

25

law or in fact; in other words, dismissal is only appropriate for a claim based on an indisputable

26 meritless legal theory. Fogel v Pierson, CAlO(Colo) 2006,435F3d 1252. Therefore, where
27
28

2

jft)

Pteaessyi pa&SM4*

1

there is no finding on the merits, there can be NO DISMISSAL. Where, as here, in forma

2

pauperis status has been granted, were there an obvious pleading or other defect for dismissal, it

3

more likely than not would have been raised by the prior Magistrate Judge. Dismissal is not

4

appropriate in instant matter.

5

There is no reference in the O&R&R to any authority that defines “duplicative” or

6

sets forth criteria for such a finding in support of the harsh “punishment” of dismissal and in

7

contravention of public policy for hearing of cases on the merits. Black’s Law Dictionary

8

equates “duplicate” with being a “copy...an original instrument repeated...” Instant case is

9

clearly NOT a “copy” of a prior action. There is NO FACT OR CITATION TO AUTHORITY

10

in the O&R&R in support of a “duplicative” conclusion or that there is any basis in fact or law

11

for the recommendation of dismissal based thereon or for any reason; thus, denying any notice of

12

defect upon which an amended complaint of right would be appropriate.

13
14

Grounds for Recusal/Vacatur of Assignment.

15

The entire vague and ambiguous questionable process in the O&R&R by which a

16

dismissal is recommended, gives the strong appearance of bias intent to prejudice without regard

17

to the merits of the complaint and urgent need for injunctive relief to preserve constitutional right

18

of access to the court to avoid prejudice as a defendant in pending civil appeal with PG&E,

19

where it sued on false complaint alleging a recorded easement on plaintiffs real property which

20

was admitted at trial - did NOT exist! Further, the refusal in the O&R&R to entertain any

21

filings, gives the strong impression that medically necessary requests for accommodation of

22

disability/illness of Plaintiff re extension of time necessity to achieve a written project in such

23

fashion as to have a fair and equal opportunity with able-bodied litigants to achieve a favorable

24

result, will either not be filed and/or be favorably entertained by the Magistrate Judge. The

25

delay in response to pending request, leaves this Plaintiff with said impression and necessity to

26

endure extreme hardship in order to get preliminary objections filed timely to avoid prejudice.

27
28

3

cumen
ffi iiMM mm48
««« m “socumen

_*

1

Vacatur of the referral is proper under these extraordinary circumstances; in addition to, referral

2 under Rule 123.
3
4

No Operative Facts for Dismissal.
Remarkably, the only factual references made by the Magistrate Judge is to a

5

6 II partial paragraph starting with the words: “action arises out of’ from the "first amended
7

complaint” in 2:12-cv-1984 which is admitted to be "stillpendingand to a partial paragraph

8

starting with the words: “action arises out of’ in reference to instant action. The Magistrate

9 Judge FAILS TO TELL YOUR HONOR THAT THE PARAGRAPHS ARE FROM THE
10 I INTRODUCTION(S) to the Complaints! There is certainly NO AUTHORITY cited that
11

allows a dismissal based on similarity in an introduction between complaints. And, it appears

12 I no dismissal is proper in a case, where the allegations do not reference a prior case with the same
13

facts and claim against the same defendant that was previously dismissed for being “frivolous or

14

malicious.”

15

From the apparent irrelevant references in an “Introduction,” and based on no

16 || other actual fact stated, cause or authority cited, the Magistrate Judge contends that it is
17

“apparent that instant matter concerns the same essential parties and nearly identical

18

allegations as McColm, 2:12-cv-01984-MCB-AC.” The Magistrate Judge is wrong! Her

19

suggestion that an amended complaint in 2:12-cv-01984 to add “new defendants and/or new

20

claims'’ is also wrong and would prove prejudicial by time; in particular, under the new post

21 | original complaint facts and defendant actions in instant case.
22

The operative facts are NOT nearly identical, do not occur prior to the filing of the

23 | original complaint in 2:12-cv-01984 and are based on DIFFERENT DEFENDANT ACTOR
24

FACTS, WHICH OCCUR AFTER THE FILING OF THE ORIGINAL COMPLAINT; thereby,

25

NOT ARISING FROM THE SAME OR SUBSTANTIALLY IDENTICAL TRANSACTIONS,

26

HAPPENINGS OR EVENTS. Thereby, no “amended complaint” as suggested by the Magistrate

27
28

4

%

Case 2:18-cv-02092-MCr
Case 2:18-cv-02092-ML

'KD Document 18 Filed 08/21/'
CKD Document 11 Filed 03/11/.

Paae 31 of 48
Page b oft)

1

Judge re 2:12-CV-1984 is appropriate or timely. Such would clearly not avoid a statute of

2

limitations defense.

3

The O&R&R does not provide facts and authority in support of its recommended

4

action that the complaint should be dismissed as “duplicative.” The recommendation is properly

5

declined.

6
7
8
9

Related Cases: Not Amended or Supplemental Complaint but Separate Lawsuit.
The Magistrate Judge comments that Plaintiff indicates that the two matters are
related. Thus, it appears that the Court had appropriate notice from Plaintiff and that the

10

Magistrate Judge appears to conclude that the matters may be considered by the Court as being

11

related under FRCP 83, Local Rule 123. Should such be found appropriate, then the reference

12

should be vacated and reassigned to the judge for 2:12-cv-1984 for processing as a separate

13

action in the interest ofjudicial economy.

14

As reference above, an amended complaint concerns events which took place

15

before the original pleading was filed and must be based on the same operative facts as those set

16

forth in the original complaint. A supplemental complaint sets forth allegations concerning

17

matters which have taken place since the original pleading was filed. Keith v Volpe (9* Cir.

18

1988) 858 F2d 467, 468. In light of the relationship back to date the action was commenced and

19

statute of limitations problems, amended complaints are not appropriate on facts/claims

20

subsequent to the commencement of the action. Supplemental complaints may have similar

21

problems and do not apply to unrelated claims; thus, the pleader is NOT required to bring

22

a supplemental complaint on separate claims that arose after the filing of the original complaint;

23

but should bring a separate lawsuit, as did Plaintiff in instant action. Manning v City ofAuburn

24

(11* Cir. 1992) 952 F2d 1355, 1359-1360.

25
26

Vacatur of Referral

27
28

5

I

c^i;«b RsaMiwami wav. pi§i $m48
1

Clearly, the questionable approach by the Magistrate Judge in this action with

2

omission of operative fact and law to deny substantial procedural and substantive rights to this

3

Plaintiff is too harsh, evasive and discriminatory, to withstand scrutiny, showing the appearance

4

of grounds for recusal and extraordinaiy circumstances in support of the request that the referral

5

be vacated and recommendations rejected.

6
7

Conclusion

8

9

For the reasons outlined above, and as required by 28 U.S.C. section 636(b)(l)( C) and

10

Rule 72.3(b) of the Rules of this Court, Plaintiff objects to the Magistrate Judge’s Order and

11

Findings and Recommendations alleging the action is “duplicative.”

12

The Court should decline to adopt the O&R&R. Instead, it should vacate the referral and

13

reassign the action with consideration of the action as related to case number 2:12-cv-1984; not

14

as a “supplemental” pleading; but as authority allows, as a properly filed separate lawsuit in the

15

interest of party and judicial economy.

16
17

Dated: March 8,2019

submitted,

18
V

19
20

t

21
22
23
24
25

26
27

28

6

\A. MCCOLM

l

Ca6l^^6SW-aB^6RDD88Mt]& ffiMY/li Pit Ms48

?

1

PATRICIA A. MCCOLM
P.O.Box 113
2 Lewiston, CA 96052
(415)333-8000

filed

3

4

Plaintiff, pro se

MAY 14 2fll9

5

6
7
8

IN THE UNITED STATES DISTRICT COURT

9

FOR THE NORTHERN DISTRICT OF CALIFORNIA

10
11
12

PATRICIA A. MCCOLM

13
^

Plaintiff,

14
15
16

NO. 2:18-CV-2092-MCE-CKD

HHBr
SUPPORT F°R JUDICUL NOTICE IN

17
18

vs.

RESvEST TO^PPEARRYTF^RPJmmr
RE

19
20

21 | TRINITY COUNTY
22 A etal.
23

Defendants.

24

25

TO HONORABLE MORRISON C. ENGLAND, Jr., UNITED STATES DISTRICT
26 JUDGE:
27

28

1

EXHIBIT

C?symvc«/w& teinn\n mm® wm®*
1

NOTICE IS HEREBY GIVEN that on July 25,2019 at 2:00 p.m. or as soon thereafter as

2 counsel may be heard by the above-entitled Court, located at 5011 Street Suite 4-200,

3 Sacramento, California 95814 in Courtroom 7,14th Floor, Hon. Morrison C. England, Jr.;
4 plaintiff PATRICIA A. MCCOLM will move the court for an order on motion to alter or amend
5 the order of dismissal entered April 16,2019 (13) and for relief from the judgment of dismissal
6 entered thereon April 16,2019 (14); requests relief re vacatur with leave to file amenfoA
7 complaint and/or permission to file an amended complaint as “supplemental complaint’ to 2:128 cv-1984 and for sua sponte appointment of counsel/ADA accommodation and/or upon further
9 application following recovery from plaintiffs acute limiting injury.
10

This motion will be brought pursuant to Federal Rules of Procedure, rules 59(e) and

11 | 60(bXlX2)(6) in that the facts and grounds upon which the complaint is based, 1) show
12 substantial merit on its individual facts and related law, which are 2) not “duplicative” or
13 “frivolous;” as well as, 3) accommodation of acute injury / limitations of permanent disability
14 showing excusable neglect and to avoid a miscarriage ofjustice. Further, the facts and grounds
15 upon which the complaint is based, do not comport with an order of dismissal as “duplicative”
16 being equivalent to “frivolous,” in a potentially meritorious action; in particular, where
I

17 judgement thereon issues without a mention re leave to file a first amended complaint and/or as
18 leave to file as a supplemental complaint Thereby, deemed an “outright refusal.” The dismissal
19 and judgement thereon, is clear error and manifestly unjust where facts and law do not comport
20 with the complaint being either “duplicate” or “frivolous;” in particular, in failing to provide for
21 a first amendment and failing to afford sufficient accommodations under the American's With
22 Disability Act and related California statutes to ensure equal protection/due process and equal
23 access to the court by plaintiff, a qualified person with disability/member of stigmatized class
24 being denied equal protection, in a meritorious action for which relief is necessary to abate
25 intentional knowing discriminatory/retaliatory constitutional violations inflicted by defendants to
26 interfere with and prejudice plaintiff in the exercise of her civil rights.
27
28

2

.

C!:le2ite»^rciSffi) %ocuralnfl§ Hffiffi ^oW8

1

This motion is based on this Notice of Motion and Motion, the Memorandum of Points

2 and Authorities filed herewith, the declaration of Patricia A. McColm/request for judicial notice
3 J with request to file all confidential exhibits under seal, the request for appointment of counsel,
4 the pleadings and papers on file herein and upon such supplemental and other matters as may be

5 filed hereafter and as may be presented to the Court at the time of the hearing.
6
7

Plaintiff respectfully requests oral argument in this matter and accommodation of any
perceived defect or omission by reason of limited medical capacity aggravated by serious acute

8 injury affecting preparation and presentation hereof.
9

Plaintiff requests appearance by telephone and will comply with court requirements for

10 same.
11

DATED: May 13,2019

12
A. MCCOLM

13
14
15
MEMORANDUM

16
17
18

Plaintiff respectfully moves the court for order vacating setting aside of its Order of
Dismissal (13) and Judgement thereon (14) by reason that the judgement was based upon a
manifest error of fact and law, it is a manifest injustice in an action, the merit of which, was not
determined and by reason that there is an appearance of discriminatory bias and/or judicial ethics

22 violations by questionable apparent denial of leave to amend, denial of equal protection access to
23 I the court by “persons” with disability and/or discrimination against “persons” otherwise
24 stigmatized by such disabilities, as “vexatious.” Such “persons” are equally entitled to due
25 V™*53

^ protection as is any other citizen. Thus, any judicial officer who does not

26 a8ree md harbors the same historical “hatred” toward such stigmatized classes that were
2? sbnilarly victimized in the past; e.g. Jews, African Americans, Irish, Chinese; should recuse.
28

3

*>

.
1

B°occuuiM
It is a manifest injustice to misuse the process of the court to deny access tn the court in

2 an otherwise meritorious case to ANY citizen and/or misuse the process to impose a false and
3

misleading decision to be misinterpreted, that plaintiff filed what is traditionally defined as

4

“frivolous” litigation, without regard to lack of finding on the merits or leave to am^-nd; an abuse

5

of discretion, a questionable wrongful decision to be used by some unscrupulous judge or

6 attorney to “set-up” an unwarranted further denial/limitation of access, a constitutional violation.
7 Appointment of counsel is the remedy, not dismissal of a pro se ADA/deprivation of civil rights
8

complaint that is neither a copy of a State action nor in any other respect meets the definition of

9 “duplicative” under the law such as to trigger a finding of “frivolous” under 28 U.S.C. 1915;
10 which authority, works against such a finding; and, where public policy works in favor of trial on
11

the merits. Instant action is neither “duplicative” nor “frivolous.” There is good cause to vacate

12 and set aside the Order of dismissal and judgment thereon.
13

A motion to amend or alter an order (13) and judgement (14) is authorized by Federal

14 Rules of Civil Procedure, rule 59(e) to correct an error of law and to prevent miscarriage of
15 justice. Fed.R.Civ. P. 59(e) serves the purpose of allowing a party to correct manifest errors of
16 law or fact (emphasis added). Templet v HydroChem Inc., 369 F3d 473 479 (5th Cir 2004). To
17 prevent a manifest injustice, an amendment of a complaint is authorized; yet, in spite of assertion
18 by the Magistrate Judge that no determination on the merit of the claims was

neither leave

19 to amend was provided to avoid a miscarriage of justice nor permission to amend to deem the
20 complaint a “supplemental” complaint as authorized by law, which would have been a
21 reasonable decision. Instant case also provides good cause for relief from judgment under Rule
22 | 60(b) for mistake, inadvertence, surprise, excusable neglect and other reason that justifies relief.
23

The above grounds apply in instant case.

24

Judicial Notice is requested of plaintiffs filings under seal that show she suffers

25 permanent limitations of disability including physical and cognitive decline which affects ability
26 to medically meet limited time impositions, appreciate and perform as directed or timely recall
27
28

4

h
CCSase2:l8-c"v°-02o!2^CE?CKD
1

WeBiii mmim &&&'&*

direction or research, as the court may expect from able-bodied parties/attomeys; thereby,

2 inflicting unwarranted prejudice. Further, on April 26,2019, plaintiff suffered deep laceration
3 | injury near the artery in the back of her leg, which inflicted seriously limiting effects of pain,
4 medication, shots re blood clot and near daily emergency room treatment with hours of IV
5 antibiotics; as well as, multiple daily wound bandage changes and drainage requiring wet bed
6 changes daily. Although the emergency room recommended admission to the hospital for several
7 2 days of necessary treatment, plaintiff refused knowing that a letter needed to be provided to the
8 | court seeking additional time and this motion was incomplete. The sitting in contravention of
9 having the leg raised, necessary to prepare even the limited paperwork for this court, is believed
10 to have aggravated the pain, swelling and risk of blood clots. But for the pre-injury work
11 8 previously done to prepare this motion, it could not have been filed in anyform timely. If there
12 is anything further the court requires of this motion in order to grant request to vacate, it is
13 respectfully requested that leave be provided to supplement as the court directs; as it is not
14 possible to accomplish anything more, prior to a jurisdictional due date of May 14,2019.
15

The Order of dismissal is in contravention of the merit of each of the causes and legal

16 i theories presented and in favor of public policy for hearing on the merits with allowance of the
17 | amended complaint/supplemental complaint
18

Plaintiff requests Judicial Notice of each OBJECTION raised in the Objections to

19 Magistrate Findings and Recommendations (12) as through fully set forth herein, which actually
20 lists substantial OBJECTIONS sufficient to support grounds herein to alter / amend re clear error
21

and to avoid a miscarriage ofjustice and good cause for relief under Rule 60(b) for mistake,

22 inadvertence, surprise, excusable neglect and other reason that justifies relief.
23
24 Error re Language of Judgment;
25

The wording of the Judgment re “Decision by the Court," appears to be error in that

26 I contrary to the language of the judgment, the action did NOT come “to trial or hearing before
27
28

5

I

the Court.” The issues have NOT “been tried or heard.” And thus, no proper “decision has been

2 rendered.” Quite the contrary appears to have happened. Plaintiff had no trial or hearing, no
3 issues were considered on the merit of the complaint itself and leave to amend appears to have
4 been outright refused. There is no indication of any defect subject to amendment If the Court
5 does not like the quoted parts of the “Introduction” which is alleged to be duplicative, it can
6 I simply strike same without affecting the merit of the actual facts and law upon which the
7 | complaint is based. A decision was NOT issued on the evidence. The claim of “duplicative”
8 I being synonymous With “frivolous” Is itself; In particular as applied on the facta in thh
9 case.blatantly wrong and a miscarriage of justice. Such language is not only false and
10 misleading, it is potentially subject to misuse to prejudice plaintiff in future mattery a due
11 process violation and manifest injustice.
12
13 Error of Law re 28 U.S.C. section 191S.
14

Although 28 U.S.C. section 1915 provides for dismissal of an action that is “frivolous,” a

15 H district court may deem an In forma pauperis complaint “frivolous” only if it lnrk«
16 | arguable basis in either law or in fact: in other words, dismissal is only appropriate for a claim
17 I based on an indisputable merit-less legal theory and the frivolousness determination cannot serve
18 I as a feet finding process for the resolution of disputed facts. Fogle v Pierson, CA10 (Colo.)
19 2006,435 F3d 1252, Milligan v Archuleta, CA10(Colo.) 2011,659 F3d 1294. Accordingly,
20 where as In instant case, the Magistrate Judge stated she “expresses no opinion regarding the
21 merits ofPlaintiff's claims,” adopting the recommendation of dismissal is error.
22

It appears that there is no authority under 28 U.S.C. section 1915 which authorizes
23 i dismissal of a pro se in forma pauperis complaint as “frivolous” by being “duplicative” of
24 J another action, absent the prior action having been dismissed as “frivolous” on the SAME
25 I FACTS and CLAIMS previously dismissed as frivolous. The Magistrate Judge references 2:1226 I cv-1984 as the alleged “duplicative" case and then states: “That matter is still pending.” No
27

28

6

ocumen
ocumen

til

&PtW8

1

facts or issues have been decided in that action that could be considered “duplicative” for
2 dismissal That matter is also clearly NOT frivolous! Plaintiff obtained a right to sue letter in
3 said employment discrimination case from the appropriate State agency. It is also an ADA
4 access, discrimination and retaliation matter. Employment discrimination is not at issue in
5 I instant action and the operative dates are not prior to 2012; but in 2017.
6

There appears to be a questionable relationship between the handling of the 1984 case

7 | after a near year delay bv the Court to coordinate with instant matter; in what appears to be an
8 effort to inflict prejudice thereby, in particular, where plaintiff’s disability time limitations are
9 known. The Magistrate Judge’s findings in instant case (2/21/19) preceded the new Magistrate
10 Judge’s findings in 2:12-cv-1984 by a few weeks (3/20/19); findings, which remarkably assert
11 I delay in the recommended dismissal of the clearly meritorious 1984 matter. (Objections to error
12 | in the 1984 matter, will be filed hereafter.)
13

The dismissal order in instant case, to which this motion applies, was entered April 16,

14 [ 2019, AFTER KNOWLEDGE OF THE PROPOSED DISMISSAL OF THE 1984 MATTER.
15 This makes the suggestion by the Magistrate Judge in instant matter and order thereon, that an
16 amended complaint was the proper procedure, rather than a separate complaint, is entirely
17 erroneous. As more fully set forth below, an amended complaint addresses foots which arose
18 PRIOR to the initial complaint and those matters which arose AFTER the initial complaint may
19 be addressed with leave by a supplemental complaint or a separate complaint, as was correctly
20 done by plaintiff in instant matter.
21

Not only is it a false assumption that an amendment was still available; but also, because

22 | the facts in instant complaint occurred AFTER the date of the initial complaint. Further it is a
23 A false assumption / “direction” to the plaintiff to potentially cause prejudice; because, there would
24 j be no complaint to amend. Instant complaint is viable on its own and/or as a supplemental
25 complaint to 1984. Both matters dismissed at or about the same time is not only a manifest
26 injustice where there is substantial merit to the complaints; but deprives plaintiff of her
27
28

7

. | C6Iie22^?cv®®i-r^(ci'-6^B

flliiWfo@!fiWJ9 Papi^rf#8

1 0 and defamatory representations/media comment and hostile environment, saying “no more!”

2 I PLEASEI
3

According to an article in the Ohio State Law Journal, there are only three types of

4 alleged duplicative law suits: 1) Where the use of “duplicative” referencing a complaint, is
5 applied where the exact SAME LAWSUIT IS FILED IN BOTH STATE AND FEDERAL
6 COURT (not applicable here); 2) Where a defendant brings what is deemed to be a “reactive”
7 lawsuit (not applicable here); and 3) Where different named plaintiff’s bring separate class
8 actions or shareholder derivative suits representing the same or similar classes on the same
9 causes of action (not applicable here). PLAINTIFF’S SUITS DO NOT FIT ANY OF THESE
10 I DESCRIPTIONS of alleged “duplicative” lawsuits.
11

The finding that instant case is “duplicative” is error as a matter of fact and law; as is the

12 nexus thereby, of being “frivolous.” The Order of dismissal and Judgement are properly vacated
13 0 and with permission, amended to proceed as a supplemental complaint
14
15 |j Error re Application of “Frivolous” to Dismiss:
16

As stated above, although 28 U.S.C. section 1915 provides for dismissal of an action that

17 is “frivolous,” a district court may deem an in forma pauperis complaint “frivolous” only If
18 lacks an arguable basis In either law or In fact! in other words, dismissal is only appropriate
19 | for a claim based on an indisputable merit-less legal theory and the frivolousness determination
20 0 cannot serve as a feet finding process for the resolution of disputed facts. Fogle v Pierson, CA10
21 | (Colo.) 2006,435 F3d 1252, Milligan vArchuleta, CA10(Colo.) 2011,659 F3d 1294.
22 A Accordingly, where as in instant case, the Magistrate Judge findings state she “expresses no
23 J opinion regarding the merits ofPlaintiff’s claims," adopting the recommendation of dismissal
24 | is error and an apparent abuse of discretion.
25

Cornell Law School presents on line its Wex Legal Dictionary in which it defines

26 “frivolous:” In the legal context, a lawsuit, motion, or appeal that lacks any basis and is intended
27

28

10

.

fiSMy,8 fUsWA'^p^^*48

1 to harass, delay or embarrass the opposition... Judges are reluctant to find an actionfrivolous,
2 B based on the desire not to discourage people from using the courts to resolve disputes. It is
3 I hoped this Court agrees and does not abide discrimination/retaliation under any pretext or stigma
4 A by court employees. Fairness, impartiality, due process and equal protection should apply to all
5 H “persons" as the Constitution mandates.
6

There is no basis in fact or law that brings into question the merit of plaintiffs 2018

7 complaint in this matter. The clear need for injunctive relief to avoid prejudice from the hostile
8

restrictive retaliatory operations of the Trinity Court employees, has been shown by the unlawful

9 time restrictions without due process imposed solely by a hostile retaliatory clerk. The defendant
10 court employees even ignored Judge Dennis Murray, who gave notice at hearing in 2013, that all
111 Trinity County clerk requested restrictions on Patricia McColm’s access to court services did not
12 exist and that there was nothing before the court that would allow imposition of said restrictions;
13 yet, defendants persist in the false and defamatory harassment of plaintiff by arbitrary
14 unconstitutional restrictions, in order to retaliate for exercise of civil rights; including the tiling
15 of civil rights actions in this Court, to prejudice her defense in other matters; in particular, where
16 i PG&E tried to claim a non-existent recorded easement in her real property, with improper entry
17 repeatedly destroying same, to place multiple transmission poles in the middle of her deceased
18

father’s planned sub-division. Most recently, without proper notice, PG&E destroyed 17 trees

19 that CalFire stated, posed no risk of harm to the power lines. The knowing unlawful restrictions
20 on physical right of access to court services by clerks is seriously prejudicial, a constitutional
21

violation. The ADA and constitutional violations by defendants need to be stopped by this court,

22

or civil rights under the laws of the United States mean nothing in California.

23

24 ErT9r ofkawre “To the extent that Plaintiff fa adding new defendants and/or new piping
25 I to are properly brought through an amended complaint In
frn.w.niQfri.
26 H MCE-AC and not a new case.
27
28

11

. c8i!e2^?mm,affi bocume
ocumensftf m&BaB?
1

A dismissal on this purported interpretation of law is WRONG. As set forth above and

2 J in FRCP 15(a) an amended complaint addresses events which took place BEFORE the original
3 U pleading; assuming the statute of limitations has not run. Under 15(d) a supplemental pleading
4 J is proper to set forth facts occurring AFTER the date of the initial complaint was filed, where the
5 I statute of limitations has not run. It is wrong to assume that where there is a statute of
6 j limitations defense, that an amended complaint is still viable, were an attempt be twad* to amend
7 B the 1984 action to include instant case. Should the Court find it proper and viable, instant
8 B complaint may be construed as a “supplemental” pleading that should not be dismissed.
9
10 | Error of Fact re 2il2-cv»1984 First Amended Complain*
11

The only statement of alleged “feet” in the Magistrate Judge’s findings and

12 recommendations adopted by the Court to justify the allegation of “duplicative” was a SINGLE
13 REFERENCE TO THE INTRODUCTION to the complaints as essentially background showing
14 I retaliatory intent by the defendants and NOT THE FACTS WHICH CONSTITUTED THE NEW
15 A CAUSES OF ACTION which occurred AFTER initiation of the 1984 complaint Accordingly,
16 A the Court’s contention that the proper procedure for plaintiff was to file an amended complaint in
17 J 2:12-cv-1984 is ERROR OF LAW.
18

The remainder of allegations regarding “same essential parties and nearly identical

19 | allegations as MsCfllnT is NOT supported by citation to either fact or law in either of the
20 I complaints and is WRONG. It is obvious that neither the entire complaint in instant action nor
21 J the first amended complaint in the 1984 matter was actually read. Clearly the facts for each
22 | cause of action are based on different dates, different transactions, occurrences and actors and IS
23 NOT IDENTICAL! NOT A COPY AND NOT ARISING DURING THE SAME PERIOD OF
24 TIME. The 1984 matter initiated as a failure to hire discrimination ca«»

£gg for which
25 a right to sue letter was received and on disability discrimination, which has elements of physical
26 I barrier access ADA violations; as well as, retaliation. Instant case addresses a later denial of due
27
28

12

Case 2:18-cv-02092-MCE-CKD
Case 2:18-cv-02092-MCE-CKD

process/equal protection/first amendment retaliatory incident and improper threats predicated on
2

an unlawful imposition by a clerk, restricting court services to 15 minutes; an unconstitutional

3

restriction imposed without due process, which will continue absent injunctive relief sought in

4

instant matter to restore full unobstructed access by time to court services, restrictions imposed

5 without due process and enforced through intimidation and threats by court employees.
6 Disabled persons should not be kept out of court, denied constitutional rights, by reason of
7 disability, retaliatory threats to liberty interest, stigma, being outspoken in exercise of free speech
8 or by reason of false and defamatory inferences from extrajudicial sources. Relief therefrom is

9 properly requested in instant action.
10
11
12

Abuse of Discretion re Failure to Grant Leave to Amend.
In forma pauperis complaints are liberally granted the usual first amendment of right In

13 instant case, the Court has adopted a recommendation that is silent regarding leave to amend; and
14 by silence, fails to provide any justifying reasons that leave to amend was not addressed. Thus,
15 | the Court’s silence may be deemed an “outright refusal;" having the same result Foman v
16 I Davis (1962) 371 US 178,182. In that the Court clearly has not identified any fact or cause that
171 needs amendment; the complaint should proceed as filed and/or with leave to deem it a
18 | “supplemental complaint”
19
20 | FORMS / FUNDAMENTAL ELEMENT PLEADING M? CAUSE/ riTATTON TO t aw/
21 | NOT DUPLICATE ON OPERATIVE PACTS OR THF. S AMF. rOMPT AfT^
22

Entire practice manuals are published with forms for attorneys to use; yet it appears that

23 | when used by a pro se litigant some unidentified something is “duplicative.” Most attorneys use
24 I "duplicative” forms per cause of action and insert the facts. So to say that “much of a complaint
25 is “identical” to another, is specious and raises the spector of bias rather than careful
26 I consideration of the facts and elements of the cause. It more nearly reflects the lack of
27
28

13

. I c6ase22!ft-cv9S®"-,Wi<ci'£ffi B88TOM? MffiMMb9
1 knowledge of law and practice; by a law student intern, than a learned judicial officer.
2 There clearly are NO FACTS to back up the unfounded assertions. Plaintiff’s matters appear to
3 have been disregarded without the time they deserve; giving the impression that bias and stigma
4 I rather than feet and law prevailed in instant matter.
5
6 I No Ruling on Request to Vacate Referral;
7

The Court made no ruling on Plaintiffs objection to the assignment of the Magistrate

8 H Judge Carolyn K. Delaney in instant matter. The remarkable error and appearance of wrongful
9 | intention therein and/or complete lack of care to perform a through review of the two cases;
10 perhaps, because the plaintiff is the stigmatized McColm in the two cases, would strongly
11 suggest that the Magistrate Judge relied for her findings on improper extrajudicial sources and/or
12 I personal bias and intent to prejudice to avoid acting in the case, rather than on the actual facts
13 A and law indicative of substantial merits of the action. Recusal not dismissal would have been an
14 ethical result In that said Magistrate Judge has a history of discriminatory bias as to plaintiff and
15 her needs as a person with disability; even before a proper progressive disabling medical
16 diagnosis of M.S. issued. Thus, it is reasonable to conclude that she could not be fair and
17 impartial in instant matter and/or accommodating of the variable substantial effects and
18 & limitations therefrom. Consideration re withdrawal of the reference is respectfully requested.
19

20 | Genera! Considerations re Dismissal;
21

In considering a dismissal of a complaint, courts must assume all general allegations

22 | "ffltoe whfttsasr specific fogty might be necessary to support them.” [Peloza v Capistrano
23 Unittfed School Dist (9* Cir. 1994) 37 F3d 517,521 (emphasis added)] The approach of the
24 court should be to apply this mandate throughout it’s analysis. Certainly, deprivation of civil
25 rights and acts in concert to deprive plaintiff thereof are actionable under 42 U.S.C. 1983, ADA
26 and other statutes as actually stated in the complaint,
27
28

14

.
1

^assee?ite8?8l2:Mgf:S®> iPoWWFi'lWW9?^^®48
Plaintiff is entitled to the benefit of any doubt whatsoever. Where there are ambiguous

2 0 inferences, the court must adopt whichever Inference supports a valid claim. [Columbia Natural
3 Resources, Inc, V Tatum (6* Cir. 1995) 58 F3d 1101,1109.
4

Pro se complaints are entitled to special leniency and are to be liberally construed.

5 Hughes v Rowe (1980) 449 U.S. 5,9.
6

A complaint poses legal theory that can best be assessed after factual development and

7 should not be subject to a Rule 12(b)(6) dismissal. Baker v Cuomo (2nd Cir. 1995) 58 F3d 814,
8 I 818-819). Nor should it be subject to any other basis for dismissal; in particular, without time as
9 9 medically necessary to amend and/or in instant case without any leave to amend, deemed an
10 B “outright refusal.”
11

The purpose of section 1983 to redress “Misuse of power, possessed by virtue of state

12 law and made possible only because the wrongdoer is clothed with the authority of state law, is
13 action taken “under color of* state law.” Monroe v Paper (1961) 365 US 167, 184. Alsoa
14 person involved in a conspiracy with a state official to deprive another of a constitutional right,
15 acts under color of State law. Dennis v Sparks (1980) 449 US 24,27.
16

Here there is substantial allegations of acts and omissions in concert which not only

17 retaliate under the ADA but also constitute an attempt to deprive plaintiff not only of her right to
18 accommodation; but of her liberty interests as well as right of review with use of the state
19 A procedures with the significant assistance of state officials. Tulsa Collection Serv. v Pope
20 I (1998) 485 US 478,489. The complaint clearly shows that plaintiff was treated differently than
21 I able-bodied persons and/or retaliated against for her prior complaints and filing a claim of
22 I discrimination/retaliation in civil right complaint in instant court
23
24 Pronosed Remedy;
25

The court is respectfully requested to set aside its order and judgement of dismissal with

26 filing of amended complaint, which with permission to be deemed a “supplemental” complaint.
27
28

15

.

. C?Pale2?:!«»<im BggSRSSffi

P^ofls48

1 I Dated: May 13,2019
2

Respeci

submitted, S

3
4

Patricia-A. .cColm

5
6

REQUEST FOR ORAL ARGUMENT/APPEARANCE BY TELEPHONE

7
8

In further support of good cause in support of the motion, oral argument is respectfully

9 requested by telephone.
10

Your kind consideration is appreciated.

11
12

Dated: May 13,2019

13
14

15
16
DECLARATION

17
18

19
20

PATRICIA A. MCCOLM declares:
1. I am the plaintiff in the above entitled action.
2. The statements herein are my personal knowledge and if called as a witness could and

^ would testify competently thereto.
22

3. The facts stated in the above notice and motion are true and correct to the best of my

M know*ed8e “><1 If on information and belief, believe such to be true and correct.
24

4. Relief from the Order of dismissal and judgement thereon is hereby respectfblly

25 “,“stod

g00d ^c*“e 'mdw FRCP *«ion 59e for error of bet and law and to prevent a

26 miscarriage ofjustice and under FRCP 60(b) by reason of mistake, inadvertence, srnprise,
27 | excusable neglect and other reason that justifies relief.
28

16

.
l

Bo°ccuuffe« ^wim9pp*$§ifim8
5. Your declarant is a qualified person with disability under the American’s With

2 | Disability Act with limitations of disability that impact ability to act competently within time
3 A limitations by reason of the diagnosis making it impossible to know at any particular time,
4 I whether or not, sufficient cognitive and physical function will be available to function effectively
5 1 to achieve any written project in such fashion as to have a fair opportunity to achieve a favorable
6 | result The diagnosis is one that was belatedly identified in 2016 as a ground of negative impact
7 I on inability to meet time limitations in this action. It is progressive M.S., worsening over time.
8

6. Rather than be prejudiced thereby, the unpredictable limitations support application for

9 appointment of counsel in this meritorious ADA retaliation case. But for the substantial impact
10 of the acute iryury of April 26,2019, a proper motion for appointment of counsel would have
11 been prepared for filing with this motion; a motion, most of which, was researched/drafted prior
12 to said date. Accordingly, either sua sponte appointment and/or leave to file such motion
13
14

hereafter is appreciated.
7. It is respectfully requested that Judicial Notice be taken of the declarations in prior

15 I motions for time extension; as incorporated herein by reference (See 2:12-cv-1984), because it is
161 not physically possible to repeat herein the extraordinary circumstances and medical detriment
17 that have existed, preventing ability to competently use the prior time to complete the written
18 requirements in this matter; emergency circumstances, constituting conditions of impossibility
19 and good cause of excusable neglect for granting relief requested herein.
20

7. If there is any aspect of this motion that needs augmentation for a favorable result to

21 vacate and set aside the order of dismissal and judgment, leave to supplement under your
22 I direction is appreciated; as yes, I’ve been forced to pull from other documents thqt language
23 I which is relevant here; in light of the scope of my acute injury, which is such that daily blood clot
24 I shots and near daily emergency room care with 2+ hour I-V antibiotic treatments have been
25 Q required; in addition to four “horse size”

antibiotic tablets two time per day have been required;
26 as well as, pain medications, and two or more daily dressing changes. The deep six inch wound
27

28

17

-1

B8a«# rf®crtM3HJ9 pgjg^g^s

fc>

1 with its continuous huge swelling, is draining so profusely that it runs into my shoes without
2 regard to massive bandages and towel wraps and bed change needed daily and bloody liquid
3

running onto the floor sitting at the computer, thus, trying in good faith to meet Your Honor’s
4 I expectations.
5

8. I really don’t feel well; but this case is too important not to try to edit the motion in
6 | hopes of meeting the jurisdictional deadline. Hope my earlier draft with some edits is sufficient
7 | for your favorable determination,
8

9. Your kind consideration is appreciated.

9

I declare under penalty of peijury under the laws of the State of California that the
10 II foregoing is true and correct.
11 | Dated: May 13,2019
/
/
/

12

(tATRI
flaintii

13
14
15
16
17
18
19
20

21
22
23
24

25
26
27

28

18

.cCOLM

Case 2:18-cv-02092-MCE-CKD Document 15 Filed 05/14/19 Page 8 of 18

1

constitutional right to seek redress from the court, which appears to be biased Magistrate Judges’

2

intentions, not based on fact or law; but improper preconceived opinion, based on extrajudicial

3

sources and/or hostile bias and stigma against persons in plaintiffs protected class; and thus, a

4

constitutional violation. Without recourse to the court, plaintiff would not only continue to be

5 discriminated against as a person with disability in access to and services of the Trinity Superior
6 Court; but would continue to be harassed and threatened by Court employees with arrest for
7

merely sitting quietly in her wheelchair in the court services lobby. Thus, she would continue to

8

be demed her constitutional right of access to services of the court by unauthorized restrictions

9 on use thereof to 15 minutes, which is essential a complete denial preventing effective defense of
10 any litigation brought against her; and would tend to prejudice any appeal. Plaintiff timely needs
11

the injunctive relief requested in instant action to preserve her constitutional rights.

12
13

Error of Fact/Law re Application of “Duplicative” to Dismiss:

14

The assertion in the findings that instant complaint was “duplicative” without any

15

reference to any matter in support but a few words from the INTRODUCTION, is so vague and

16 ambiguous as to warrant being disregarding for any lawful purpose. The questionable finding
17 cites no actual facts, definitions or authority that support the contention. The finding is in error.
18

The legal definition of “duplicate,” the adjective of which is “duplicative” is either of two

19 things exactly alike and often produced at the same time specifically: a counterpart identified in
20

the Federal Rules of Evidence Rule moife

iroduced bv the same i

21

iressh
the original
or from the same matrix or by means of photography, mechanical, or electronic recording,

22

chemical reproduction, or another technique which “accurately reproduce* the ^,.1

23

(emphasis added)”! Black’s Law Dictionary agrees, defining “Duplicate” as a verb: “To double

24

25

repeat, copy, make, or add a thing exactly like a preceding one; reproduce exactly (emphasis
added).” Even a first year law student intern, required to actually read the entire complaints)

26 should be able to determine, that instant complaint clearly is NOT AN EXACT COPY OF THE
27
28

8

Case 2:18-cv-02092-MCE-CKD Document 15 Filed 05/14/19
Page 9 of 18
1

1984 COMPLAINT! The filing dates are different. 2012 v 2018; the
operative facts in instant
2 action upon which the causes are based, arise in 2017 specific to new circumstances, transaction
3

etal; as well as, new defendant actors specific to the facts stated.

If some of the defendants are
the same, then such is a showing that the requested injunctive relief is
absolutely and urgently
5 necessary, as the “bad guys” haven’t changed their ways and will
continue to manipulate others
6 for infliction of harm to plaintiff, absent injunctive relief by this
court. Plaintiff wants timely
7 action in instant case to preserve her civil rights.
8
Were there anything the Court believed was iin some way improper, then notice of intent
9 to strike some specific part is available and/or to amend.
However, nothing has been specified
10 that would give notice of any defect subject to being stricken; unless it i
s assumed that plaintiffs
11 introduction should not reflect the background which has led to instant detri
ment. An
12 introduction does not contain the
operative facts supporting the causes of action. Those facts are
4

13 I set forth separately in the complaint. Thus, reference to an introductory line as «

duplicative” to
14 allege grounds for a dismissal thereby, is seriously wrong.
The Introduction” can be stricken or
15 | amended, without affecting the operative facts and law upon which the case is based.
16

Attorney practice manuals, such as California Forms of Pleading and Practice and its

17 j equivalent Federal pleading forms, regularly repeat essential element language of causes with the
18 different facts inserted. This does NOT make the claims/complaints EXACTLY the sam
e. It
19 only helps practitioners evaluate the facts to insert th
em appropriately to meet the court’s
20 pleading requirements and jury instructions.
On information and belief, plaintiffs causes meet
21 both the general form pleading requirements and have the facts
necessary to prevail perjury
22 instructions.
23

Court’s are in good faith, generally believed to protect citizens from h

arm, not give the
24 | "green light” to further biased retaliatory abuse and prejudicial ham through “
dismissal” of
25 citizen pleas for help; in order to allow the offend
ers to proceed with the intended abuse and
26 destruction intended toward one who had the courage to “
stand up” to the discrimination, false

27

28

9

HOV2o
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 24. Motion for Appointment of Counsel

2019

QtyyFD
F,T°FaW£aLs

Instructions for this form: http://www. ca9. uscourts. mv/formsi/fnrm24imtrur.tinnx pdf

9th Cir. Case Number(s)
Case Name

19-16660

McColm v State of California

Lower Court or Agency Case Number

2:18-cv-02092

1.

My name is Patricia A. McColm

2.

I am asking the court to appoint an attorney to help me with this case.

3.

My fee status is as follows (select one):
gj The district court or this court granted my motion to proceed in forma
pauperis.
I filed a motion to proceed in forma pauperis but the court has not yet
O
ruled on the motion.
O This motion is accompanied by a motion to proceed in forma pauperis.
O

4.

I paid the filing fees for this case. However, I cannot afford an attorney
for the following reasons:

Is this a civil appeal or petition for review?
@Yes
ONo
If yes, attach an additional page(s) describing the issues on appeal.

My current mailing address
P.O. Box 113
City Lewiston

State CA

Zip Code 96052

Prisoner Inmate or A Number (if applicable)

Signature

Date November 16, 2019
Feedback or questions about this form? Email us at Jj>msrq}cg9,uSCOUrIs.,gov

Form 24

New 12/01/2018

Case No. 19-16660: ATTACHMENT TO FORM 24.
Motion for Appointment of Co

unsel

In support of Motion for Appointment of Counsel, it i
it is hereby respectfully requested that
this Court take Judicial Notice of:
1) the Notice of Appeal in this

action with attachments re issues

showing good cause and merit of the appeal;

on appeal

2) all medical verification/request for accommodation docu
ments filed under seal
m the U.S. District Court, Eastern District;
; in particular, in 2:12 -cv-1984 with related requests
for appointment of counsel therein,
and
3) in 2.12-CV-1984, the Magistrate Judge Order (ECF 56) and plaintiffs ti
motions

mely
RCP 59e/60b (ECF 55) from dismissal/judgement of the First Amended

Complaint, regarding which, the Magistrate Judge Order deni
-emes consideration, an apparent due
process violation and manifest injustice,
It is also relevant to the merit of this
appeal; because
the dismissal would appear to make mute the Magi
agistrate Judge argument for dismissal of the
underlying complaint in this appeal;
e.g. that the 2:12-cv -1984 complaint is still pending and
should have been amended rather th
an new case filed. As stated in the Notice of Appeal,
plaintiff believes that an amend
ment would not have been proper.
Further good cause for

appointment of counsel is set forth in Medical Exhibit

D(3)(b); which further shows good cau
se for delay in bringing this motion.
Your kind consideration is appreciated.

s A-

VSrJ?avis Medical Center
MIDTOWN NEUROLOGY
3160 Folsom Blvd, Suite 2100
Sacramento CA 95816-7759
J-me 12, 2019

Patricia McColm
COB: 6/5/1946
To Whom It May Concern

wjwarSSSSS^^

Sincerely,

A

l

Michelle L Apperson, MD, PhD
(916?7M-3588 "n'Ca' Pr0feSSOr °f N~"*W

E5?HSB!T_^

wV

Instructions
You have had a drain placed i

'“rr;

-

ar --^sssb&sS^^sSb
er any

You may resume all

normal medication

acetaminophen (Ty|en.
are acceptable.
y
s and you have

no diet restrictions.

“~";r

rventional Radiologist at 415-5^ 7(-cn
any °f ^ following symptoms
6°'°r

if it is after hours, the
on-call pager at

n site.
Fever over 100.S F

and/or have chills.

Thank you for choosing UCSF.

Care of Your Jackson
tVh»0rJP/Jfbon'Pra,t) drai"

-Pratt at Home

- UCSF

removes fluid that
the end of the drain to
create the suction
Your ip

neede"'°

There is

a soft plastic bulb on
w-ll not work if it gets too full.

D° this before the bulb get
S full.
Wash your hands.
* Get the measuring cup.
* Empty the drai'nTge^ntTthemea^ ^

°f the C3p with anything

'-Zsz’sz

ork properly (t0

create suction).

Wash your hands

fleanin

Ifae_Sldn flr

SiLn-d-theJP_Tube

Do this every day.
Wash your hands.
* Remove the old dresing
* Clean the skin
hydrogen peroxide

andoVe^hairwat^^ ^ ^ ^ need to

vunltllTmm622A

use a cotton swab dipped in

6,'P""tedbyMi1S^at

a solution of one-half

©2017 Epic Systems

Page 7 of

V

Jun. n. 2019 2:25PM
No. 8733
^Health1

JS2

P. 1

at 1545 Divisader°

San Francisco CA 94115-3010
Phone:415-353-7900 | Fax:415-353-2583
Clinical Programs:
General Medleine/l'rimary Care
Weight Managemct
Behavioral Health

June 17,2019
Patient;
Date of Birth;
Date of Visit:

Patricia McColm
6/5/1946
6/12/2019

To Whom it may concern,

s:r;:;s::r~gs 6—*>

r healing from this

Sincerely,
Meghana Dipti Gadgil, MD
Electronically signed by Meghana Dipt! Gadgil, MD

RE: McColm, ;iatricia DOB: 6/5/1946

on 6/17/2019, 2;04 PM

Page 1 of 1

Total: $0.00
Total RX: 2
Signature Required: N
I Counsel: Y

*

Walmart
Pharmacy
<*>

Call your doctor?oremedicaPi0dav1ce'abiut® id^eftos ^ Pharmaci$t at <530)221-3166.
■*

YoU may roporf sid0 0fraa!s 10 FDA at 1-aoo-FDA-t088 or USB the internet at

Pharmacy hours: I" Mon: Qfroo AMTofr^rPM
~U8:

09:00 AM - 09.-QQ pm

rMCCQLM

Wed: 09;6o AM - 09:00 PM

I PATRICIA,A
PO BOX 113
•’.VISTON, CA 960520112

10:00 AM-06:00 PM

SMZ/TMP DS 800-160 TAB AUR

WAL-MART PHARMACY 10-2537
1515 DANA DRIVE
I REDDING, CA 96003 -0000

ationtPay: $0.00

Sun:

Lunch Time Varies

DIRECTIONS: TAKE t TABLET BY MOUTH TWICE DAILY

I

I

Fri: 09:00 AM-09:00 PM
Sat: 09:00 AM - 07:00 PM

Thu: 09:00 AM - 09:00 PM

I

PRIORITY: FUTURE
NEW

Ref = o

DATE: 06/06/19

Cash: $25.13

HUM

gadgil.meghana d
QTY: 28

DAW: 2

DAY SUPPLY: 14

^MCCOLM
! PATRICIA.A
PO BOX 113
EYVISTON, CA 960520113

CEPHALEXIN S00MG

WAL-MART PHARMACY 10-2537
* 1515 DANA DRIVE
I REDDING, CA 96003 -0000

RX: 7602981
i Patient Pay; $0.00

I
i

CAP LUP

DIRECTIONS: TAKE 1 CAPSULE BY MOUTH 4 TIMES DAILY

PRIORITY: FUTURE
NEW

Ref = 0

DATE: 06/06/19

Cash: $26,61

HUM

GADGIL.MEGHANA D
QTY: 56

DAW: 2

r

\
\

DAY SUPPLY: 14

I
I

-—r

nap:,.// w w w. weumu.com/arugs/warug-1 r/>//cephalexin-oral/details...

V'

»'

CHECK YOUR SYMPTOMS

FIND A DOCTOR

FIND/ ncnrnvr

W*MD

SEARCH

Q

>

s
PO

(/>
S

m
2 ’

Drugs & Medications > Cephalexin

TODAY ON WEBMD

Cephalexin Side Effects by
Likelihood and Severity

Lower Your C
Get started now
information you

COMMON side effects
If experienced, these tend to have a Less Severe expression (i }
• Diarrhea

I

• Feel Like Throwing Up

HowtoMana
With cITP
Take these step
bleeding.

• Indigestion
• Intense Abdominal Pain
• Throwing Up
• Yeast Infection OfVagina And Vulva

MedsforYou
Learn how each

'4.-1

INFREQUENT side effects

Prevent Injui
With cITP
Here are a few i
started.

If experienced, these tend to have a Less Severe expression (?)
• Burning Stomach
• Infection Due To The Candida Fungus

RARE side effects

Infectious Disease
Specialists in

If experienced, these tend to have a Severe expression ©

Lewiston, CA

*

Jagraj Singh. Nijjar, MD

• Acute Pustular Eruptions On Skin

Red Bluff, CA 96080

• Allergic Reaction Causing Serum Sickness
Stephen J.. Grant

• Bleeding
t

• Blistering Skin Diseases

!
I

• Abnormal Liver Function Tests

■-;YiM-T85963
More infectious Disease Specialists

'-’v^>iiwivaiii viai

nnps://www.webmd.com/drugs/2/drug-l 1757/cephalexin-oral/details...

/?

f Q Q Drugs & Med • • •
L/ccicascu utuuu

SUBSCRIBE

Q

r icucici.3

• Deficiency Of Granulocytes A Type Of White Blood Cell
• DRESS Syndrome
• Erythema Multiforme
• FeverCaused By Administration Of A Drug
• Giant Hives
• Hallucination
• Hemolytic Anemia
• Hepatitis
• High Amount Of Bilirubin In The Blood
• Hives
• Increased Eosinophils In The Blood
• Inflammation Of The Large Intestine
• Interstitial Nephritis
• Itching
• Kidney Disease With Reduction In Kidney Function
• Kidney Failure

advertisement

• Life Threatening Allergic Reaction
• Low Blood Counts Due To Bone Marrow Failure
• Rash
• Seizures
• Stevens-Johnson Syndrome
• Toxic Epidermal Necrolysis
• Yellowing Of Skin Or Eyes From Bile Flow Problems
• Yellowing Of Skin Or Eyes From Liver Problems
If experienced, these tend to have a Less Severe expression (?)
• Agitation
• Anal Itching
• Confused
• Dizzy
• Genital Itching
• Head Pain
• Inflammation Or Infection Of Vagina
• Joint Pain

feu*

Vvw,

D(z)(h)

— “viw, x ivmivo, Train,..

k

CHECK YOUR SYMPTOMS

HfefcMD

HEALTH
A-Z

mips.//www.weoma.com/arugs/2/arug-040U'//smz-tnip-ds-oral/details

FIND A DOCTOR

FIND A DENTIST

FIND LOWESTSRJHJ|Pj PR|(

DRUGS
LIVING
FAMILY NEWS
&
HEALTHY &
SEARCH
&
SUPPLEMENTS
PREGNAMCBKPERTS

Q

Drugs & Medications >

SMZ-TMP DS Tablet
GENERIC NAME(S): Sulfamethoxazole-Trimethoprim

Read Reviews (254)
Find Lowest Prices
Uses

Side Effects Precautions Interactions Overdose

Images

Side Effects
Nausea, vomiting, diarrhea, and loss of appetite
may occur. Ifany ofthese effects persist or worsen,
tell your doctor or pharmacist promptly.
Rememberthatyourdoctorhas prescribed this
medication because he or she has judged that the
benefit to you is greater than the risk of side effects
Many people using this medication do not have

ADVERTISEMENT

TODAY ON WEBMD
Lower Your L
Get the informa

serious side effects.

Tell your doctor right away if you have any serious
side effects, including: muscle weakness,
mental/mood changes, signs of kidney problems
(such as change in the amount of urine, blood in
the urine), extreme drowsiness, signs of low blood
sugar (such as sudden sweating, shaking, fast
heartbeat, hunger, blurred vision, dizziness, or
tingling hands/feet).

i

Get medical help right away if you have any very
serious side effects, including: persistent
headache, neck stiffness, seizures, slow/irregular
heartbeat.

y

. ij]'-

■
JB
**

How to Mana
With cITP
Lifestyle changi
bleeding.
Meds for You
Learn how each

This medication may rarely cause serious (possibly
fatal) allergic reactions and otherside effects such
as a severe peeling skin rash (such as StevensJohnson syndrome), blood disorders (such as
agranulocytosis, aplastic anemia), iiverdamage, or
lung injury. If you notice any of the following, get
medical help right away: skin rash/blisters,

F'iKtaiT_

SUBSCRIBE

Food andWa
With HIV
Simple tips to ri
infection.

,lo>

i.r

avuum, l ivLuics, warn...

nups://www.webmd.com/clrugs/2/drug-64007/smz-tmp-ds-oral/details

Vr*

m
m

m
H

r\c\j

uium,

o/-\

quuuu

!

This medication may rarely cause a severe
intestinal condition (Clostridium difficileassociated diarrhea) due to a type of resistant
bacteria. This condition may occur during
treatment or weeks to months after treatment has
stopped. Tell your doctor right away if you
develop: persistent diarrhea, abdominal or
stomach pain/cramping, blood/mucus in your
stool.

Uzi Moshe. Selcer, MD
Bayside, CA 95524
More Infectious Disease Specialists

-

.

MORE ABOUT DRUGS AND
MEDICATIONS

Do not use anti-diarrhea products or narcotic pain
medications if you have any of these symptoms
because these products may make them worse.

Pill Identifier
My Medicine

Use of this medication for prolonged or repeated
periods may result in oral thrush ora new yeast
infection. Contactyourdoctorifyou notice white
patches in your mouth, a change in vaginal
discharge, or other new symptoms.

Interaction Checker
Drugs and Medications A-Z
Drugs and Medical Conditions

This is not a complete list of possible side effects. If
you notice other effects not listed above, contact
your doctor or pharmacist.

Latest Drug News

In the US-

Find a Pharmacy

Call your doctor for medical advice about side
effects. You may report side effects to FDA at 1-800FDA-1088 or at www.fda.gov/medwatch.

Find a Vitamin

i

In Canada - Call yourdoctorfor medical advice
about side effects. You may report side effects to
Health Canada at 1-866-234-2345.
Related Links
List SMZ-TMP DS Tablet side effects by likelihood
and severity.

Free Rx Coupon

i
!

We&MDRx"

Save up to 80% on your prescriptions.

< Previous: Uses

Next: Precautions >

advertisement

